<html>
<title> - DISCUSSION DRAFT OF H.R., THE DATA SECURITY AND BREACH NOTIFICATION ACT OF 2015</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









DISCUSSION DRAFT OF H.R. ___, THE DATA SECURITY AND BREACH NOTIFICATION 
                              ACT OF 2015

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2015

                               __________

                           Serial No. 114-21

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                               ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-433 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                 _____

           Subcommittee on Commerce, Manufacturing, and Trade

                       MICHAEL C. BURGESS, Texas
                                 Chairman
LEONARD LANCE, New Jersey            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          YVETTE D. CLARKE, New York
GREGG HARPER, Mississippi            JOSEPH P. KENNEDY, III, 
BRETT GUTHRIE, Kentucky                  Massachusetts
PETE OLSON, Texas                    TONY CARDENAS, California
MIKE POMPEO, Kansas                  BOBBY L. RUSH, Illinois
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            PETER WELCH, Vermont
SUSAN W. BROOKS, Indiana             FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
    Prepared statement...........................................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
    Prepared statement...........................................    10

                               Witnesses

Hon. Jessica Rich, Director, Bureau of Consumer Protection, 
  Federal Trade Commission.......................................    11
    Prepared statement...........................................    14
    Answers to submitted questions...............................   215
Clete D. Johnson, Chief Counsel for Cybersecurity, Federal 
  Communications Commission......................................    30
    Prepared statement...........................................    32
Jon Leibowitz, Co-Chairman, 21st Century Privacy Coalition.......    59
    Prepared statement...........................................    61
    Answers to submitted questions \1\...........................   217
Sara Cable, Assistant Attorney General, Commonwealth of 
  Massachusetts..................................................    68
    Prepared statement...........................................    70
    Answers to submitted questions...............................   218
Mallory B. Duncan, Senior Vice President and General Counsel, 
  National Retail Federation.....................................   100
    Prepared statement...........................................   102
    Answers to submitted questions \1\...........................   225
Laura Moy, Senior Policy Counsel, Open Technology Institute, New 
  America........................................................   138
    Prepared statement...........................................   140
    Answers to submitted questions \2\...........................   226
Yael Weinman, Vice President for Global Privacy Policy and 
  General Counsel, Information Technology Industrial Council.....   153
    Prepared statement...........................................   155
    Answers to submitted questions...............................   227

                           Submitted Material

Discussion Draft, H.R. ___, the Data Security and Breach 
  Notification Act of 2015, \3\ submitted by Mr. Burgess
Letter of March 18, 2015, from Public Knowledge, et al., to Mr. 
  Burgess and Ms. Schakowsky, submitted by Mr. Pallone...........   183

----------
\1\ Mr. Leibowitz and Mr. Duncan did not answer submitted questions for 
the record by the time of printing.
\2\ Ms. Moy's answers have been retained in committee files and also 
are available at  http://docs.house.gov/meetings/IF/IF17/20150318/
103175/HHRG-114-IF17-Wstate-MoyL-20150318.pdf.
\3\ The discussion draft has been retained in committee files and also 
is available at  http://docs.house.gov/meetings/IF/IF17/20150318/
103175/HHRG-114-IF17-20150318-SD003.pdf.
Letter of March 18, 2015, from Ellen Bloom, Senior Director, 
  Federal Policy and Washington Office, et al., Consumers Union, 
  to Mr. Burgess and Ms. Schakowsky, submitted by Mr. Pallone....   186
Letter of March 17, 2015, from Jim Nussle, President and CEO, 
  Credit Union National Association, to Mr. Burgess and Ms. 
  Schakowsky, submitted by Mr. Burgess...........................   187
Letter of March 16, 2015, from Howard Fienberg, Director of 
  Government Affairs, Marketing Research Association, to Mr. 
  Burgess and Ms. Schakowsky, submitted by Mr. Burgess...........   190
Letter of March 16, 2015, from Brad Thaler, Vice President of 
  Legislative Affairs, National Association of Federal Credit 
  Unions, to Mr. Upton, et al., submitted by Mr. Burgess.........   191
Letter of March 17, 2015, from Craig D. Spiezle, Executive 
  Director and President, Online Trust Alliance, to Mr. Burgess 
  and Ms. Schakowsky submitted by Mr. Burgess....................   194
Statement of National Association of Convenience Stores, March 
  18, 2015, submitted by Mr. Burgess.............................   202
Statement of American Bankers Association, et al., March 18, 
  2015, submitted by Mr. Burgess.................................   210
Answers to House Committee on Energy and Commerce questions 
  submitted to the Secret Service, February 19, 2015, submitted 
  by Mr. Burgess.................................................   213

 
DISCUSSION DRAFT OF H.R. ___, THE DATA SECURITY AND BREACH NOTIFICATION 
                              ACT OF 2015

                              ----------                              


                       WEDNESDAY, MARCH 18, 2015

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Michael 
Burgess (chairman of the subcommittee) presiding.
    Members present: Representatives Burgess, Lance, Blackburn, 
Harper, Olson, Pompeo, Kinzinger, Bilirakis, Brooks, Mullin, 
Upton (ex officio), Schakowsky, Clarke, Kennedy, Cardenas, 
Rush, Butterfield, Welch, and Pallone (ex officio).
    Also present: Representative McNerney.
    Staff present: Charlotte Baker, Deputy Communications 
Director; Leighton Brown, Press Assistant; Karen Christian, 
General Counsel; James Decker, Policy Coordinator, Commerce, 
Manufacturing, and Trade; Graham Dufault, Counsel, Commerce, 
Manufacturing, and Trade; Melissa Froelich, Counsel, Commerce, 
Manufacturing, and Trade; Howard Kirby, Legislative Clerk; Paul 
Nagle, Chief Counsel, Commerce, Manufacturing, and Trade; 
Olivia Trusty, Professional Staff, Commerce, Manufacturing, and 
Trade; Michelle Ash, Democratic Chief Counsel, Commerce, 
Manufacturing, and Trade; Christine Brennan, Democratic Press 
Secretary; Jeff Carroll, Democratic Staff Director; David 
Goldman, Democratic Chief Counsel, Communications and 
Technology; Lisa Goldman, Democratic Counsel; Brendan 
Hennessey, Democratic Policy and Research Advisor; and Tim 
Robinson, Democratic Chief Counsel.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Chair will recognize himself for the purpose 
of a 5-minute opening statement. Again, welcome. Today's 
legislative hearing is the first concrete step for this 
subcommittee toward the goal of a single Federal standard on 
data security and breach notification. In January we heard 
testimony about the key elements of sound data security and 
breach notification. I am pleased that so many of the elements 
discussed at that hearing have been incorporated into the draft 
legislation.
    I also know, and I am aware of, that we just had another 
data breach that was in the news. I hope that the committee 
looks at health care data. Health care data has its own set of 
policy issues, where, if sharing data is done properly, could 
have tremendous public benefits and save lives, but there is 
already law in this area under HIPAA, and taking on health care 
privacy data in this bill I feel would delay the consumer 
benefits that we can provide under this draft.
    I am very encouraged by the bipartisan approach and 
commitment shown by my colleagues, vice chairman of the full 
committee Congresswoman Blackburn, and Congressman Welch, 
announcing this draft legislation. This subcommittee has a 
history of bipartisan cooperation with the work of Congressman 
Barton and Congressman Rush, that they have put a lot into this 
issue over the years. I am encouraged that this may be the year 
that we find the paths forward.
    The issue of data breach has been before this subcommittee 
for a decade, and it is in reference to that that this is such 
important work. I would just acknowledge the work of previous 
subcommittee chairs on both sides of the dais who have worked 
in this space. Chairman Bono Mack is here with us in the 
audience this morning. I heard from former Chairman Terry 
yesterday on the eve of starting this hearing. And certainly 
Chairman Rush, when I was in the minority and on this 
subcommittee, I know put in a lot of work.
    But all the while that we have been working, cybercriminals 
have continued their operations. They steal, they monetize an 
individual's personal information, all of that being done in 
the absence of any national data security requirement. Even 
today the great majority of States do not have a data security 
requirement. Ten years in, we do have greater insight into what 
cybercriminals are doing, and the impact of their activities. 
Conservative estimates put cybercrime cost to the consumers at 
$100 billion annually, and cybercrime is estimated to cost the 
United States economy over a half million jobs each year.
    The Secret Service tells us that data breaches are 
primarily monetized through financial fraud. On average, a 
third of data breach notification recipients became the victims 
of identity fraud in 2013, compared with a quarter in 2012, 
clearly increasing. On a more personal level, individuals are 
hit twice when there is a data breach. First they need to 
understand which of their accounts they need to reset, if they 
need new bank cards, or if they need to freeze their credit 
report. Luckily, there are many laws to help navigate the 
process.
    Second, the cost across the ecosystem is $100 billion 
annually, and that is eventually passed on to the consumer in 
the form of higher fees and prices. The existing patchwork of 
State laws on data security and breach notification do not seem 
to have been effective. The noted security blogger Brian Krebs 
posted an article this week about the new criminal tools to 
steal customers' payment information, and he ended it with a 
simple question, are online merchants ready for the coming e-
commerce fraud wave? The draft legislation before us this 
morning addresses this question with both a security 
requirement for personal information that leads to identity 
theft and payment fraud, and a breach notification for 
consumers so consumers can protect themselves.
    Some will complain about what is not in the bill. If we 
actually want to pass legislation, it will be impossible to 
proof it against what can happen in the future. We cannot shade 
into areas such as privacy. This administration, and our 
minority colleagues, over the past 6 years have worked on this 
and still can't agree on how to address privacy, and I just 
want to be very clear on that topic. While we don't tackle 
privacy in this legislation, we don't preempt it either. This 
bill is focused on unauthorized access that leads to identity 
theft and financial fraud. It has nothing to do with permitted 
access, or when that permission can be given, or what data can 
be collected. I will also say that Congress must continue to 
address privacy of all kinds, but not at the price of delaying 
consumer protections for data security and breach notification.
    Another complaint will be around moving the 
telecommunications, cable, and satellite providers from the 
Federal Communications Commission to the Federal Trade 
Commission. I look forward to hearing which agency has been 
more active--the more active consumer watchdog regarding data 
security and breach notification in the last 10 years.
    I certainly do look forward to continuing the bipartisan 
good faith negotiations with all interested stakeholders. 
Negotiation remains open and ongoing, and, of course, the doors 
of the subcommittee are always open.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    Today's legislative hearing is the first concrete step for 
this subcommittee toward the goal of a single Federal standard 
on data security and breach notification.
    In January, we heard testimony about the key elements of 
sound data security and breach notification legislation. I am 
pleased to see so many of the elements discussed at that 
hearing incorporated into the draft legislation.
    I know we just had another healthcare data breach. And I 
hope that the committee looks at healthcare data. Healthcare 
data has its own set of policy issues--where sharing data if 
done properly--could have tremendous public benefits and save 
lives. But there is law in this area--HIPPA--and taking on 
healthcare privacy and data in this bill would delay the 
consumer benefits that we can provide under this draft.
    I am very encouraged by the bipartisan approach and 
commitment shown by my colleagues, vice chairman of the full 
committee Congresswoman Blackburn and Congressman Welch 
announcing this draft legislation. This subcommittee has a 
history of bipartisan cooperation with the work Congressman 
Barton and Congressman Rush have also put into this issue over 
the years. I am encouraged that this is the year we can find a 
path forward.
    The issue of data breach has been before this subcommittee 
for many years and all the while, cybercriminals continued 
their operations to steal and monetize individuals' personal 
information. All in the absence of any national data security 
requirement. Even today, the great majority of States do not 
have a data security requirement.
    Ten years in--we do have greater insight into what 
cybercriminals are doing and on their impact. Conservative 
estimates put cybercrime costs to consumers at $100 billion 
annually. And cybercrime is estimated to cost the U.S. economy 
508,000 jobs each year.
    The Secret Service tells us that data breaches are 
primarily monetized through financial fraud. On average \1/3\ 
of data breach notification recipients became victims of 
identity fraud in 2013, compared with \1/4\ in 2012.
    On a more personal level, individuals are hit twice when 
there is a data breach. First, they need to understand which of 
their accounts they need to reset, if they need new bank cards, 
or if they need to place a freeze on their credit report. 
Luckily, there are many laws to help navigate that process.
    Second, the costs across the ecosystem, that $100 billion 
annually, are eventually passed to the consumer in the form of 
higher fees and prices.
    The existing patchwork of State laws on data security and 
breach notification have not been effective.
    The noted security blogger, Brian Krebs, posted an article 
this week about new criminal tools to steal customers' payment 
information that ended with a simple question: ``Are online 
merchants ready for the coming e-commerce fraud wave?''
    The draft legislation addresses this question with both the 
security requirement for personal information that leads to 
identity theft and payment fraud, and the breach notification 
for consumers so that they can protect themselves.
    Some folks will complain about what is not in the bill. If 
we want to actually pass legislation we cannot future proof 
this bill. We cannot shade into areas such as privacy. This 
administration and our minority colleagues have had 6 years, 
and they still can't agree on how to address privacy.
    On the topic of privacy--let me be very clear--while we 
don't tackle privacy we don't preempt privacy either. This bill 
is focused on unauthorized access that leads to identity theft 
and financial fraud. It has nothing to do with permitted 
access, or when that permission can be given, or what data can 
be collected. I will also say that Congress must continue to 
address privacy of all kinds, but not at the price of delaying 
consumer protections for data security and breach notification.
    Another complaint will be around moving telecommunications, 
cable, and satellite providers from the Federal Communications 
Commission to the Federal Trade Commission. I look forward to 
hearing which agency has been the more active consumer watchdog 
regarding data security and breach notification in the last 10 
years.
    I look forward to continuing the bipartisan and good faith 
negotiations with all interested stakeholders. Negotiations 
remain ongoing, and our doors are always open.

    Mr. Burgess. With that, I would like to recognize the 
ranking member of the subcommittee, Ms. Schakowsky, 5 minutes 
for an opening statement.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. I appreciate the 
hearing today on the draft legislation released last week, 
and--by Mr. Welch and Ms. Blackburn to require data breach 
security and reporting. I do appreciate my colleagues' efforts 
on this legislation, and I agree that there are some positive 
elements, FTC penalty authority and a data security provision 
among them.
    That said, however, this bill does need significant 
amendments to achieve the goal of both simplifying compliance 
for business, and enhancing protections for consumers. I don't 
believe that goal is out of reach. I don't think that it 
expands the time that it will take. Maybe by just a bit, but 
the draft proposal would--has these problems, in my view. It 
would prevent States from enforcing their own laws related to 
data security and breach notification. It prevents all private 
rights of action on data breach and notification. As currently 
drafted, it would override all common law, including tort and 
contract law, as they apply to data. Those provisions would 
leave consumers with fewer protections than they currently 
have.
    This proposal also weakens existing consumer protections 
under the Communications Act for customers of 
telecommunications, satellite, and cable companies. And while I 
believe the FTC can, and should, be empowered to play a 
stronger role in protecting consumers' data, I don't believe 
that should come at a cost of eliminating existing FCC 
protections. The bill would also only require consumers to be 
notified of a breach if it is determined that a breach has, or 
will, likely lead to financial harm. That would only occur 
after the companies regulated under this bill have concluded 
investigations of breaches to determine the risk of financial 
harm to each of their customers or users, a process that could 
take months.
    There are many types of harm that go beyond simply 
financial ones. For example, a data breach that revealed 
private communication might not have any measurable financial 
impact, but could cause embarrassment, or even danger. The 
types of personal information covered by this bill are far too 
limited. The bill doesn't cover over the counter drug 
purchases, or other health information not covered by HIPAA. By 
contrast, the data laws in Texas and Florida protect those 
types of information. The bill does not cover metadata, which 
can be used to acquire sensitive personal information. The bill 
also does not provide FTC rulemaking authority for defining 
personal information. This is a major weakness when we have 
seen the nature of personal information change significantly 
over time. For example, when the House passed the Data Act in 
2009, it did not include geolocation information as part of 
personal information. Today I think we could all agree that 
geolocation information should be protected, and that is why we 
need legislation that allows the FTC to adapt as the nature of 
personal information continues to evolve. Of course we can't 
anticipate everything, but we could create some flexibility.
    In closing, this bill is very broad, in terms of preemption 
of State and other Federal laws, and narrow in terms of 
definitions of harm and personal information. I believe the 
bill should be narrow where it is now broad, and broad where it 
is now narrow. I look forward to hearing from our witnesses 
about their perspectives on this bill, and to moving forward 
with a strong bill that adequately protects consumers.
    [The prepared statement of Ms. Schakowsky follows:]

            Prepared statement of Hon. Janice D. Schakowsky

    Thank you, Mr. Chairman, for holding today's important 
hearing on draft legislation released last week by Mrs. 
Blackburn and Mr. Welch to require data breach security and 
reporting.
    I appreciate my colleagues' effort on this legislation, and 
I believe it has some positive elements--FTC penalty authority 
and a data security provision among them.
    That being said, this bill needs significant amendment to 
achieve the goal of both simplifying compliance for businesses 
and enhancing protections for consumers.
    The draft proposal would prevent States from enforcing 
their own laws related to data security and breach 
notification. It prevents all private rights of action on data 
breach and notification. As currently drafted, it would 
override all common law--including tort and contract law--as 
they apply to data. Those provisions would leave consumers with 
fewer protections than they currently have.
    This proposal also weakens existing consumer protections 
under the Communications Act for customers of 
telecommunications, satellite, and cable companies. While I 
believe the FTC can and should be empowered to play a stronger 
role in protecting consumers' data, I don't believe that should 
come at a cost of eliminating existing FCC protections.
    The bill would also only require consumers to be notified 
of a breach if it is determined that a breach has or will 
likely lead to financial harm. That would onlyoccur after the 
companies regulated under this bill have concluded 
investigations of breaches to determine the risks of financial 
harm to each of their customers or users--a process that could 
take months.
    There are many types of harm that go beyond simply 
financial ones. For example, a data breach that revealed 
private communications might not have any measurable financial 
impact, but could cause embarrassment or shame.
    The types of personal information covered by this bill are 
far too limited. The bill doesn't cover over-the-counter drug 
purchases or other health information not covered by HIPAA. By 
contrast, the data laws in Texas and Florida protect those 
types of information. The bill also does not cover metadata, 
which can be used to acquire sensitive personal information.
    The bill also does not provide FTC rulemaking authority for 
defining personal information. That is a major weakness when 
we've seen the nature of personal information change 
significantly over time. For example, when the House passed the 
DATA Act in 2009, it did not include geolocation information as 
part of personal information. Today, I think we could all agree 
that geolocation information should be protected. That is why 
we need legislation that allows the FTC to adapt as the nature 
of personal information continues to evolve.
    In closing, this bill is very broad in terms of preemption 
of State and other Federal laws and narrow in terms of 
definitions of harm and personal information. I believe the 
bill should be narrow where it is now broad, and broad where it 
is now narrow. I look forward to hearing from our witnesses 
about their perspectives on this bill and to moving forward 
with a strong bill that adequately protects consumers. With 
that, I yield the remainder of my time to Mr. Kennedy.

    Ms. Schakowsky. With that, I yield the remainder of my time 
to Mr. Kennedy.
    Mr. Kennedy. Thank you very much to my colleague, and thank 
you for--my colleagues on both sides of the aisle for their 
efforts in pulling this bill together. It is always nice to see 
a Bay Stater here to testify before the committee, so I just 
wanted to give a warm welcome to Sara Cable, Massachusetts 
Assistant Attorney General with the Consumer Protection 
Division. Ms. Cable investigates and prosecutes violations of 
the Massachusetts Consumer Protections Act and the 
Massachusetts data notification laws and data security 
regulations. I have no doubt that the work that Ms. Cable does 
in enforcing Massachusetts data breach laws has protected many 
across the Commonwealth, and I truly appreciate her being 
willing to be here today and take some time to share her 
thoughts and expertise with us about an incredibly important 
issue.
    And with that, Ms. Schakowsky, I will yield back. Thank 
you.
    Mr. Burgess. Chair thanks the gentlelady. Gentlelady yields 
back. The Chair now recognizes the chairman of the full 
committee, Mr. Upton, 5 minutes for an opening statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you. We are at a critical point for 
consumer protection in the U.S. Our interconnected economy, 
with many great benefits, also poses new threats from thieves, 
new challenges to information security, that is for sure. And 
as the Internet weaves itself into the DNA of appliances, cars, 
clothing, the threats of exploitation multiply, but the most 
serious underlying criminal purpose remains the same, to steal 
and monetize personal information, and it has to be stopped.
    As data breaches have evolved, the one constant is that 
identity theft and payment card fraud are the crimes that pay 
the criminals. According to the Bureau of Justice Statistics, 
personal identity theft costs our economy nearly $25 billion in 
'12, making it the largest threat to personal property today. 
There is not a single member of this committee who doesn't 
represent someone who has suffered either identity theft or 
payment fraud.
    This bipartisan draft legislation that we consider today 
establishes a reasonable national security standard, with 
flexibility to adapt to changing security technology. The FTC 
and the State Attorneys General will be policing companies to 
hold them accountable for protecting consumers. The draft also 
focuses on the personal information that criminals have 
targeted, the cyber gold that attracts today's 
cybersafecrackers. I want to thank my colleagues Blackburn and 
Welch for bringing us a big step closer to a bipartisan 
solution. Other members of the committee, including Mr. Barton 
and Rush, have also rolled up their legislative sleeves over 
the years. And I want to thank Chairman Burgess for making this 
issue a very top priority on this subcommittee.
    I also commend the narrow approach. By targeting the most 
sought after personal information in the areas lacking current 
Federal protections, this bill avoids controversial issues that 
have derailed past efforts. Our goal is to create clear 
requirements to secure personal information from, and notify 
consumers in cases of unauthorized access. The goal is not to 
broadly regulate the use of data.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    We are at a critical point for consumer protection in the 
United States. Our interconnected economy, with many great 
benefits, also poses new threats from thieves and new 
challenges to information security. As the Internet weaves 
itself into the DNA of appliances, cars, and clothing, the 
threats for exploitation multiply, but the most serious 
underlying criminal purpose remains the same: to steal and 
monetize personal information.
    As data breaches have evolved, the one constant is that 
identity theft and payment card fraud are the crimes that pay 
the criminals. According to the Bureau of Justice Statistics, 
personal identity theft cost our economy nearly 25 billion 
dollars in 2012, making it the biggest threat to personal 
property today. There is not a single member of this committee 
who doesn't represent someone who has suffered from either 
identity theft or payment fraud. I know in southwest Michigan 
it's a real concern.
    The bipartisan draft legislation we consider today 
establishes a reasonable national security standard with the 
flexibility to adapt to changing security technology. The FTC 
and the State AGs will be policing companies to hold them 
accountable for protecting consumers. The draft also focuses on 
the personal information that criminals have targeted--the 
cyber gold that attracts today's cybersafecrackers.
    I would like to thank Representatives Blackburn and Welch 
for bringing us a big step closer to a bipartisan solution. 
Other members of the committee, including Mr. Barton and Mr. 
Rush, have also rolled up their legislative sleeves over the 
years on this. And I thank Chairman Burgess for making this 
issue the top priority of the subcommittee.
    I also commend the narrow approach--by targeting the most 
sought-after personal information and the areas lacking current 
Federal protections, this bill avoids controversial issues that 
have derailed past efforts. Our goal is to create clear 
requirements to secure personal information from--and notify 
consumers in cases of--unauthorized access; the goal is not to 
broadly regulate the use of data.
    Some have argued that our legislation should be in addition 
to State laws. But the truth is, the State approach has not 
addressed the problem and does not adequately protect all 
consumers. We need a single, Federal set of rules. Companies 
and enforcers alike should focus on ensuring everyone is living 
up to that standard.

    Mr. Upton. I yield the balance of my time to Ms. Blackburn.
    Mrs. Blackburn. I thank the chairman for yielding, and I 
also want to recognize the previous chairman of this committee, 
Ms. Bono, with us today, who have worked so diligently on this 
issue through the years. I appreciate the guidance and the 
leadership there. I also want to commend Mr. Welch, who has 
been co-chairman of the Privacy Working Group, and the chairman 
for allowing the Privacy Working Group a full 2 years to dig 
into this issue, and to see where we could find agreement. And 
that is the basis of the draft legislation that we have before 
us today.
    The reason it is important that we do something now is 
because 2014 was dubbed the Year of the Breach. Think about the 
number of breaches that were out there. Our constituents have 
begun to see this firsthand. It has affected someone in nearly 
every family. And what they are saying is the issue is getting 
out of control, and we need to take steps to put the guidance 
in place so that individuals will know they have the tools that 
are necessary to protect their data, and, as I say, their 
virtual you, their presence online.
    And I appreciate Mr. Welch and the work he and the Privacy 
Working Group did to help us come to this point, and I yield 
the balance of my time to the gentleman from Vermont.
    Mr. Welch. Congress hasn't been doing its job. We need to 
pass legislation that is going to deal with this incredible 
problem. You know, since 2005 a billion consumer records have 
been hacked into. The current status right now, we have got 
States trying to do something. Forty-seven different State laws 
on notice, 12 State laws on data security, but we don't have 
any national standard, and we don't have any legislative 
authority for the FTC, or really, for that matter, the FCC to 
do much, so we have to act and let there be a cop on the beat 
to protect people.
    What this bill does--and this is a discussion draft, and I 
appreciate the back and forth, but we are going to have to have 
Mr. Pallone and Ms. Schakowsky very much involved as we go 
forward. What this does, it gives--it is a narrow bill. In my 
view, that is smart, because we have got to solve a problem. It 
gives the FTC explicit statutory authority, and that is being 
litigated in the Wyndham Hotels case. They can impose robust 
civil penalties. That is good. It does preempt States, but it 
doesn't limit the States with respect to the States, but it 
doesn't limit States on privacy issues, where they want to 
continue having legislative interaction.
    This bill does not do some things that would be 
controversial that are debatable, but should not be part of 
this, because it will weigh it down. It is not a privacy bill. 
The States have continued authority in that space. It is not a 
bill about net neutrality. Big debate on this panel about the 
recent order. I happen to support it. Many of my colleagues 
don't. This bill is not about that. This bill is not about the 
common law right of action under tort law. Again, a debate 
here, but not something that we want to weigh this bill down.
    Mr. Chairman, I appreciate the focus, the narrow focus on 
this. I appreciate Jan Schakowsky, the opportunity you gave me 
to work with the Privacy Group, and I implore all of my 
colleagues here to keep this going. We had good input from all 
of the affected parties, the FTC, the FCC consumer groups. We 
have got to get something done, and we have got an opportunity 
in this committee to do it. I hope we can all be part of that.
    I yield back.
    Mr. Burgess. Chair thanks the gentleman, gentleman yields 
back. The Chair recognizes the ranking member of the full 
committee, Mr. Pallone, 5 minutes for an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Burgess. Today we are 
discussing a draft data security and breach notification bill 
released recently by the majority. Data breaches are a plague 
on consumers, businesses, and our economy as a whole. Reducing 
the incidences of breaches, and the adverse effects from them, 
has rightfully been at the top of our agenda since 2005, yet it 
also has proven to be a complicated issue, without an easy 
legislative solution. I appreciate the efforts being taken to 
address the data breach problem, and I appreciate the 
difficulty of writing legislation that effectively protects 
consumers and lessens the burdens on the businesses that are 
victims of criminal breaches.
    And while the sincerity of the efforts are not questioned, 
I do question the merits of the bill before us today. The bill 
simply does not strike the right balance. There are clearly 
benefits to creating a unified system for breach notification, 
but we must be careful that a Federal law ensures that 
protections for consumers are not being weakened. Many of the 
51 State and territorial breach notification laws provide 
greater protections for consumers whose personal information is 
at risk as a result of data breach. For example, at least seven 
States and DC do not require a harm analysis before providing 
notice to consumers. At least 17 State laws also include a 
private cause of action. At least nine States' laws cover 
health information.
    In contrast, the draft under discussion today preempts 
stronger State and Federal laws, requires a financial harm 
analysis, preempts State private rights of action, and does not 
cover health or location information. Data breach notification 
is only part of the solution. The other crucial piece of any 
legislation should be baseline data security to help prevent 
breaches before consumers' personal information is put at risk. 
The draft before us eliminates State data security laws and 
replaces them with an unclear standard that will surely be 
litigated and left to judicial interpretation.
    As I said at a hearing this past January, I want to be 
supportive of sound data security and breach notification 
legislation, but to get there we must ask the right question. 
The question is not whether any one Federal agency would be 
better off. The question must always be whether legislation 
puts consumers in a better place than they are today. And, 
unfortunately, the draft before us today does not put consumers 
in a better place, in my opinion.
    So before I close, I have to raise a process issue. We 
received the draft bill last Thursday evening. The 114th 
Congress seems to have halted a long tradition of sharing text 
with all members of the subcommittee at least a full week prior 
to a legislative hearing, and this is not the first time this 
has happened this year in the Energy and Commerce Committee, as 
we saw with our Communications Subcommittee. I suspect it is 
not going to be the last.
    Also, I know this may sound, you know, a little picky, but 
I have to take issue with Chairman Burgess' opening remarks and 
repeat my longstanding belief that having some Democratic 
support does not make a measure bipartisan. I think that 
Chairman Upton used better language when he said maybe it is a 
step closer to being bipartisan. And I appreciate what Mr. 
Welch said, which is that--he mentioned having the support of 
myself and Ms. Schakowsky on a bill. I would like to see this 
bill improved before it moves further through the legislative 
process so that all members of the committee can support it, 
and it can be a truly bipartisan legislative product, which it 
is not at this time.
    I have some time left. Did you want additional time? All 
right. Yvette, or--everybody is OK? All right. Thank you, Mr. 
Chairman. I will yield back the balance of my time.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you Mr. Chairman. Today we are discussing a draft 
data security and breach notification bill released recently by 
the majority.
    Data breaches are a plague on consumers, businesses, and 
our economy as a whole. Reducing the incidences of breaches and 
the adverse effects from them has rightfully been at the top of 
our agenda since 2005. Yet, it also has proven to be a 
complicated issue without an easy legislative solution.
    I appreciate the efforts being taken to address the data 
breach problem, and I appreciate the difficulty of writing 
legislation that effectively protects consumers and lessens the 
burdens on the businesses that are the victims of criminal 
breaches.
    While the sincerity of the efforts are not questioned, I do 
question the merits of the bill before us today. This bill 
simply does not strike the right balance.
    There are clearly benefits to creating a unified system for 
breach notification. But we must be careful that a Federal law 
ensures that protections for consumers are not weakened.
    Many of the 51 State and territorial breach notification 
laws provide greater protections for consumers whose personal 
information is at risk as a result of a data breach. For 
example, at least seven States and the District of Columbia do 
not require a harm analysis before providing notice to 
consumers. At least 17 States' laws also include a private 
cause of action. At least nine States' laws cover health 
information.
    In contrast, the draft under discussion today preempts 
stronger State and Federal laws, requires a financial harm 
analysis, preempts State private rights of action, and does not 
cover health or location information.
    Data breach notification is only part of the solution. The 
other crucial piece of any legislation should be baseline data 
security to help prevent breaches before consumers' personal 
information is put at risk. The draft before us eliminates 
State data security laws and replaces them with an unclear 
standard that will surely be litigated and left to judicial 
interpretation.
    As I said at a hearing this past January, I want to be 
supportive of sound data security and breach notification 
legislation. But to get there, we must ask the right question. 
The question is not whether any one Federal agency would be 
better off. The question must always be whether legislation 
puts consumers in a better place than they are today. 
Unfortunately, the draft before us today does not put consumers 
in a better place.
    Before I close, I must raise process issues. We received 
the draft bill last Thursday evening. The 114th Congress seems 
to have halted a long tradition of sharing text with all 
members of the subcommittee at least a full week prior to a 
legislative hearing. This is not the first time this has 
happened this year in Energy and Commerce, and as we saw with 
our Communications Subcommittee, I suspect it won't be the 
last. Also, I must take issue with Chairman Burgess' opening 
remarks and repeat my longstanding belief that having token 
Democratic support does not make a measure bipartisan.
    In closing, I hope we can work together to improve this 
bill before it moves further through the legislative process so 
that all members of the committee can support it and it can be 
a truly bipartisan legislative product.

    Mr. Burgess. Gentleman yields back. His observation is 
noted. I do want to welcome all of our witnesses, and thank you 
for agreeing to testify before the subcommittee today. Today's 
hearing will consist of two panels. Each panel of witnesses 
will have the opportunity to give an opening statement, 
followed by a round of questions from our members. Once we 
conclude with questions for the first panel, we will take a 
brief break to set up for the second panel.
    For our first panel today, we have the following witnesses: 
Ms. Jessica Rich, Director of the Bureau of Consumer Protection 
at the Federal Trade Commission; and Mr. Clete Johnson, the 
Chief Counsel for Cybersecurity, Public Safety, and Homeland 
Security at the Federal Communications Commission. Thank you 
for your participation today. Ms. Rich, you are recognized for 
5 minutes for the purpose of an opening statement.

 STATEMENTS OF HON. JESSICA RICH, DIRECTOR, BUREAU OF CONSUMER 
  PROTECTION, FEDERAL TRADE COMMISSION; AND CLETE D. JOHNSON, 
    CHIEF COUNSEL FOR CYBERSECURITY, FEDERAL COMMUNICATIONS 
                           COMMISSION

                   STATEMENT OF JESSICA RICH

    Ms. Rich. Dr. Burgess, Ranking Member Schakowsky, and 
members of the subcommittee, I am Jessica Rich, Director of the 
Bureau of Consumer Protection at the Federal Trade Commission. 
I appreciate the opportunity to present the Commission's 
testimony on the subcommittee's data security legislation.
    Reports of data breaches affecting millions of Americans 
fill the headlines. These breaches involved not just financial 
data, but other types of sensitive data, such as medical 
information, account credentials, and even the contents of 
private emails. These events serve as a constant reminder that 
consumers' data is at risk. Hackers and others seek to exploit 
vulnerabilities, obtain consumers' sensitive information, and 
misuse it in ways that can cause serious harms to consumers and 
businesses. Indeed, identity theft continues to be the FTC's 
number one source of consumer complaints, and data shows that 
over 16 million consumers were victimized in 2012 alone.
    Every year, new incidents are reported that re-ignite 
concern about data security, as well as debate about the best 
way to provide it. Companies must implement strong data 
security measures to minimize consumers' risk of fraud, 
identity theft, and other substantial harm. Poor data security 
practices also creates risks for businesses. Data breaches can 
harm a company's financial interest and reputation, and also 
result in the loss of consumer trust. We need strong 
legislation now for consumers and the health of the commercial 
marketplace.
    As the Nation's consumer protection agency, the FTC is 
committed to protecting consumer privacy and promoting data 
security in the private sector. The FTC would like to thank the 
subcommittee for proposing enactment of Federal data security 
and breach notification law, which the Commission has long 
supported on a bipartisan basis.
    The Commission supports a number of elements in the 
proposed legislation which will give us additional tools to 
deter unlawful conduct. First, the bill includes a provision 
requiring companies to implement reasonable data security 
standards in addition to breach notification, both of which are 
essential to protect consumers. Second, the legislation gives 
the FTC jurisdiction to bring cases against non-profits and 
common carriers. Third, the bill provides for civil penalties, 
which are important to ensure adequate deterrents.
    However, other aspects of the draft legislation don't 
provide the strong protections needed to combat data breaches, 
identity theft, and other substantial consumer harms. First, 
the bill does not cover precise geolocation and health data, 
even though misuse of this and other information can cause real 
harm to consumers, and even though a lot of health information 
is not, in fact, covered by HIPAA. For example, we brought a 
case last year against a medical transcription company whose 
lax security practice resulted in psychiatrists' notes about 
individual patients being made available on the Internet, 
available through simple Google searches. Given the definition 
of personal information in this bill, we would not be able to 
rely on the legislation to bring that case and seek civil 
penalties.
    In addition to companies being careless with consumer 
information, hackers have incentives to obtain this data, even 
when it is not financial. For example, in some of our recent 
investigations, we have seen bad actors hack into company 
systems to steal consumers' information so they can extract 
payments from the companies for its return. A number of State 
laws currently protect consumers' health information, but those 
protections would be preempted under the bill.
    Second, the Commission believes that data security 
protection should apply to devices that collect data, such as 
some Internet-enable devices. Breaches involving these devices 
raise broader safety concerns, even if no data is stolen. For 
example, if a pacemaker isn't properly secured, a breach could 
result in serious harm to the person using it. Similarly, a 
malicious criminal who hacks into a car's network could disable 
its brakes, and other safety features.
    Third, the FTC continues to believe that data security and 
breach legislation should include rulemaking authority under 
the Administrative Procedures Act. Rulemaking would allow the 
Commission to ensure that, as technology changes, and the risks 
from the use of certain types of information evolve, the law 
keeps pace, and consumers are adequately protected.
    Finally, the FTC believes that any trigger for providing 
notification should be sufficiently balanced so that consumers 
can protect themselves when their data is at risk without 
experiencing over-notification. Accordingly, we support an 
approach that requires notice, unless a company can establish 
that there is no reasonable likelihood of economic, physical, 
or other substantial harm.
    Thank you very much for this opportunity to provide the 
Commission's views. The FTC remains committed to promoting 
reasonable security for consumer data, and stands ready to work 
with the subcommittee as it develops and considers legislation 
to protect consumers' sensitive information.
    [The prepared statement of Ms. Rich follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    
   
    Mr. Burgess. The Chair thanks the gentlelady. Mr. Johnson, 
you are recognized for 5 minutes for the purpose of an opening 
statement.

                 STATEMENT OF CLETE D. JOHNSON

    Mr. Johnson. Thank you very much. Dr. Burgess, Ranking 
Member Schakowsky, leaders of the full committee, distinguished 
members, thank you very much for having--for providing the 
opportunity to discuss the FCC's current programs and 
authorities regarding consumer protections for communications 
data, privacy, security, and breach notification. For decades 
Congress has recognized that information related to consumers' 
use of communications services is especially sensitive for 
reasons that go beyond potential economic harm, such as 
financial fraud or identity theft. If Americans can't 
communicate privately, if we are not secure in the privacy of 
information about our communications, then we can't fully 
exercise the freedoms and rights of open democratic society. As 
with medical and health care data, governed under HIPAA, and 
financial data, governed under Gramm-Leach-Bliley, and other 
statutes, Congress has long treated communications-related 
consumer information as a special category of consumer data 
that calls for expert oversight, tailored protections, and 
specific enforcement.
    Given recent developments, the privacy and security of 
sensitive information held by communications networks is 
actually a much bigger issue now than ever before. For example, 
public concerns about the availability of telephone call 
records, the widespread use of fixed and mobile broadband 
communications, privacy implications of crucial life-saving 
improvements to next generation 911, and finally, recent 
cyberattacks, such as the one aimed at suppressing the release 
and viewing of a motion picture. As the expert agency that 
regulates communications networks, we continually seek to 
improve these protections for the good of communications 
consumers. I will now turn to the legal framework currently in 
place to protect these communications consumers, and also the 
responsibilities of communications providers to secure their 
networks in the first place. The draft bill would alter this 
legal framework significantly, and would leave gaps, as 
compared to existing consumer protections for communications 
consumers.
    First, Section 222 of the Act establishes a duty for 
telecommunications carriers and interconnected VOIP providers 
to protect the confidentiality of consumers' proprietary 
information, including call records, location information, and 
other information related to the telephone service, such as the 
features of the customer's service, or even the customer's 
financial status. FCC rules under Section 222 require carriers 
to notify law enforcement and consumers of breaches, and 
carriers that fail to meet these requirements are subject to an 
enforcement action.
    Second, Sections 631 and 338(i) apply to cable and 
satellite TV providers, and they protect consumers' viewing 
history. That is the TV shows they watch, and the movies that 
they order, as well as any other personally identifiable 
information available to the service provider. Here too the--
these protections are enforced by FCC enforcement activity. And 
I would note that many of these protections, including those 
protections for several particular types of proprietary 
information, would no longer exist under the draft bill.
    If enacted, Section 6(c) of the draft bill would declare 
sections of the Communications Act, as they pertain to data 
security and breach notification, to ``have no force or 
effect'', except with regard to 911 calls. The Federal Trade 
Commission would be granted some, but not all, elements of the 
consumer protection authority that the FCC presently exercises. 
For example, if the draft bill were to become law, the FTC 
would not have the authority to develop rules to protect the 
security of consumers' data, or to update requirements as new 
security threats emerge, and technology evolves.
    Finally, while the draft bill attempts to maintain the 
protections of the Communications Act for purposes other than 
data security, the FCC's experience implementing privacy and 
security requirements for communications consumer data shows 
that there is no simple distinction between these two 
interrelated concepts, privacy and security. Whether a company, 
number one, either by human or--human error or technical 
glitch, mistakenly fails to secure customer data, or, number 
two, if it deliberately divulges or uses information in ways 
that violated consumer privacy regarding that data, that--the 
transgression is at once a privacy violation and a security 
breach. In many cases it is the very same thing, and they--
there--it is very difficult, practically or legally, to 
separate the two.
    I thank you again for the opportunity to provide a summary 
of the FCC's programs regarding data privacy and security, and, 
of course, look forward to answering any questions the 
subcommittee may have. We at the FCC, of course, stand ready, 
and willing, and able to provide any input or assistance the 
subcommittee may request as it completes this important work. 
Thank you very much.
    [The prepared statement of Mr. Johnson follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Mr. Burgess. Chair thanks both the witnesses for their 
forthright testimony. We will now go to the questioning portion 
of the hearing. I will recognize myself for 5 minutes for the 
purposes of questions.
    Let me ask the same question to both of you. First, for the 
Federal Trade Commission, how many data security cases has the 
Federal Trade Commission brought to date? And, as a corollary, 
do you have an idea as to how many investigative hours have 
been spent on data security cases?
    Ms. Rich. We have brought 55 data security cases, that is 
since the early 2000s, but we have actually brought hundreds 
of, combined, privacy and data security cases, held 35 
workshops, completed 50 reports. We have spent--I actually 
haven't tabulated up man hours, but it is an enormous amount, 
because for every case we bring, there are actually quite a 
number of investigations that we look into, but we decide not 
to bring a Federal court action. So it is millions of hours.
    Mr. Burgess. OK, but the total cases was 55, was your 
response?
    Ms. Rich. In the data security area, but many of the 
privacy cases have some data security element too, and there 
are hundreds of those.
    Mr. Burgess. Very well. Mr. Johnson, let me just ask the 
same question to you. How many data security cases has the 
Federal Communications Commission brought, and then, likewise, 
the investigative hours that your commission has spent on the 
data security cases?
    Mr. Johnson. Thank you, Mr. Chairman. In the 18 years that 
Section 222 has been in place, and this is the section that 
pertains primarily to telephone call records, there have been--
I don't have the precise number, but I think it is in the realm 
of scores and scores of cases that pertain to what is called 
customer proprietary network information. This is call records, 
location information, time and duration of call, and a whole 
host of other what is called CPNI protections. I don't have the 
precise number, and I can certainly get you the precise number, 
nor the total accumulated hours, but it is scores and scores.
    Mr. Burgess. To the extent--I think it would be helpful to 
the subcommittee if you could make the actual numbers 
available, and certainly----
    Mr. Johnson. Of course.
    Mr. Burgess [continuing]. I would allow you to do that for 
the record. Let me just ask you a question. You brought up the 
Consumer Proprietary Network Information. How many years after 
the 1996 Act did it take to fully implement the rules for CPNI 
at the Federal Communications Commission?
    Mr. Johnson. Well, I think that that--I don't know which 
exact rule you are referring to, Mr. Chairman, but I think the 
broad answer is that it has been underway for 18 years, and 
there have been multiple improvements and shifts, including for 
Congressional expectation, technological development, for 
instance, voice over IP, location information that pertains to 
911. And in 2013 there was a declaratory ruling that the 
Commission declared that CPNI pertains to information that is 
collected on mobile devices.
    So I guess the accurate answer is that it remains a work in 
progress, and that is part of the value of having that 
rulemaking authority, is in order to adapt to Congressional 
expectations, changes of technology.
    Mr. Burgess. Maybe for the purposes of clarification for 
the subcommittee, as we work through some of these issues, 
could the Commission provide us a timeline, from 1996 to 
present, where the rulemaking was involved, where it evolved? 
Obviously the threat changed over that time as well. But I am--
I guess, you know, that is part of my concern, is that it--I 
get the impression that it took some time from '96 to the point 
where the rulemaking had evolved to a point where there were 
actually consumer protections that were available. But I don't 
know that, and you are----
    Mr. Johnson. Absolutely. I will take that--I think that is 
a very important homework assignment for me, and I--run through 
very briefly--the section was established in 1996.
    Mr. Burgess. Right.
    Mr. Johnson. In 1999 location information was added. In 
2007 there was a major problem with what is called pre-texters. 
And in my old world in--working on intelligence policy, this is 
essentially a human intelligence collector, where pre-texters 
would call the telephone company, ask----
    Mr. Burgess. Right. We had a hearing on it here in this 
committee several years ago as well.
    Mr. Johnson. And so that was something, again, that was at 
once a privacy and security issue, and in 2007 the Commission 
issued rules specific to solving that problem. And, again, 
there have been some other adjustments and improvements in 
recent years. But we will get you the full story. It is 
actually--it is--it is an important story about the development 
of Section 222.
    Mr. Burgess. The Chair appreciates the gentleman's 
willingness to provide the information. The Chair recognizes 
Ms. Schakowsky. Five minutes for questions, please.
    Ms. Schakowsky. I just want to clarify that my concerns 
between the agencies is really with regard to the impact on 
consumers. I don't want anything I say to seem to reflect a 
preference for one agency over another, but rather for the 
protection of the consumers.
    So my--if this draft were enacted, regulatory and 
enforcement authority over data security and breach 
notification that is currently granted to the FCC would--under 
certain sections of the Communications Act and its regulations 
would have no force or effect. It is my understanding that the 
data security and breach notification protections under the 
Communications Act are broader than the protections afforded 
under this draft. The Communications Act provides security 
protections for information regarding telecommunications 
subscribers' use of service, but this draft does not provide 
security protections for all of that information. Instead, it 
covers only ``the location of, number from which, and to which 
a call is placed, and the time and duration of such call''.
    So, Mr. Johnson, what other information is currently 
protected under Title II of the Communications Act that would 
not be covered under this draft?
    Mr. Johnson. Ma'am, you are correct it--that there are 
specific pieces of information, both under Section 222 and also 
the cable/satellite provisions, that are not protected under 
this draft. With regard to Section 222, information such as how 
many calls a person has made, you know, sort of the peak 
calling periods for that person, does this person make phone 
calls in the morning, at night, lunchtime, specific features of 
the service, like call waiting, caller ID, and then other 
things that may be pertinent to call service, like the 
financial status of the customer. Is the customer--does the 
customer qualify for Medicaid, or SNAP, or other low income 
support? Those would explicitly not be protected by the 
definition in the draft bill.
    On the cable and satellite side, it is--essentially all of 
it would not be protected. What television shows you watch on 
cable and satellite, what pay-per-view you order, what you 
order from the Home Shopping Network, none of this would be 
protected under the draft bill, and it is----
    Ms. Schakowsky. So----
    Mr. Johnson [continuing]. Presently protected.
    Ms. Schakowsky. So viewing preferences, or viewing history, 
none of that would be covered?
    Mr. Johnson. It is presently covered. It would not be 
covered under the draft bill.
    Ms. Schakowsky. No, that is what I am talking about. This 
bill also voids breach notification obligations required under 
the Communications Act, Mr. Johnson, and its regulations, but 
as I read it, the bill would not require breach notification 
for a breach of call information. Under the Communications Act, 
and associated regulations, a breach of customer information, 
such as call data and viewing habits, requires notice to law 
enforcement and affected customers. Is that right?
    Mr. Johnson. That is correct.
    Ms. Schakowsky. But as we established, much of the customer 
information currently required to be secured under the 
Communications Act does not have to be secured under this bill. 
And if there is no requirement to protect the information, then 
there is no requirement to provide notice in the event of a 
breach, correct?
    Mr. Johnson. That is correct.
    Ms. Schakowsky. And even for the limited call information 
that must be secured under this bill, a breached company would 
not be required to provide notice because call information is 
not financial in nature, do you agree?
    Mr. Johnson. That is my interpretation, yes, ma'am.
    Ms. Schakowsky. So I wondered, Ms. Rich, if you wanted to 
comment on that. This is a concern that I have for consumers, 
that I think if we allowed the FCC to continue in its 
regulations, that we could then make sure we cover everything.
    Ms. Rich. We--for consumers--we are also looking at this 
bill in terms of its effect on consumers, and that is why, in 
our testimony, we have proposed that the bill apply to more 
information, geo, health. Communications would also be 
something that should be added to the bill. We also believe the 
breach notification trigger should be a bit broader to 
encompass different harms. So that, we agree, would be an 
improvement to the bill.
    But I--as to jurisdiction, I should say that our position 
is that we should have jurisdiction in this bill. The FTC 
should have jurisdiction over carriers in this bill because we 
have brought so many cases in this area. We bring so much 
enforcement expertise to the table. We really have been working 
on this issue since, really, the mid '90s. We also believe we 
should be able to hold different companies that are collecting 
some of the very same type of information to the same standards 
on--in our enforcement. You know, Netflix, Google, and Verizon 
really have a lot of the same information.
    And, further, the--we haven't taken a position on 
reclassification, but one byproduct of reclassification is it 
does remove our FTC jurisdiction from over providers of 
broadband service, so we would actually be--we are actually 
able to do less post-reclassification to help consumers than we 
were able to do before. That being said, we believe--a majority 
at the Commission believes we should share jurisdiction with 
the FCC, and not displace the FCC.
    Ms. Schakowsky. Thank you. I yield back.
    Ms. Rich. We work very well together.
    Ms. Schakowsky. Thank you.
    Mr. Burgess. Gentlelady's time has expired. The Chair 
recognizes the gentleman from Michigan, the chairman of the 
full committee, Mr. Upton. Did he--Ms. Blackburn, then, you are 
recognized to have 5 minutes for questions, please.
    Mrs. Blackburn. Thank you, Mr. Chairman, and I want to 
thank our witnesses for being here.
    Mr. Johnson, to you first. Please get your facts and 
figures all in order, as Chairman Burgess asked, and get that 
back to us. It is helpful----
    Mr. Johnson. Yes.
    Mrs. Blackburn [continuing]. To us, and we were hopeful to 
have that information today to be able to define the number of 
data security cases that you all have brought forward, not just 
terming it ``scores and scores.'' So let us tighten that up for 
the record.
    Ms. Rich, to you, you talked about the 55 cases that you 
all have brought forward, so I want you to walk me through what 
is the criteria that you utilize when you decide to bring a 
case forward? What is--what goes into that decision matrix?
    Ms. Rich. The core concept in our data security program, 
whether--and we have several different laws we enforce, is 
reasonableness, and not whether there has been a breach. And we 
have emphasized a process-based approach that is tech neutral. 
So for years our education and our cases have been emphasizing 
that the key to data security is to follow certain key, you 
know, basic common elements, put somebody in charge, make 
somebody responsible for the program, do a risk assessment to 
determine what are the risks in your business, not some 
checklist that another business with a totally different 
business model is using, develop a program to address the risks 
you have just found, and focus in particular on things like the 
key area----
    Mrs. Blackburn. Let me interrupt you there.
    Ms. Rich. Yes.
    Mrs. Blackburn. Would you consider, then, that you all have 
an informal set of best practices that you refer back to? Would 
that be a fair statement?
    Ms. Rich. Yes. It is not really informal, because it has 
been widely publicized in the education materials we put out in 
our complaints and orders, which all re-iterate these same 
elements.
    Mrs. Blackburn. OK. All right. Let me ask you this, then. 
Do you think the draft legislation would limit the FTC's 
Section 5 authority?
    Ms. Rich. Well, there is a savings clause, and we are happy 
about that, but, you know, as we understand it, this is a 
discussion draft, and so right now we have some concerns that 
it might weaken the protections that are currently in place. 
But with some of the suggestions we have made for strengthening 
the bill, we believe it could be quite strong.
    Mrs. Blackburn. OK. So you would rather--OK, let me ask you 
about this, then: What about consent orders? You all have to go 
ahead and get that consent order to obtain civil penalties for 
unfair or deceptive practices, so do you believe consent orders 
are a strong incentive for industry for instituting data 
security civil penalties?
    Ms. Rich. You are making an excellent point, which is that 
the bill's inclusion of civil penalties is critical, and we are 
very supportive of that. Right now, as you note, in order for 
us to obtain civil penalties, which believe are an important 
incentive and deterrent from bad behavior, we have to obtain an 
administrative order first, and then, if there is a violation, 
obtain civil penalties. So yes, you are absolutely right, that 
civil penalties are a key ingredient to the success of 
legislation.
    Mrs. Blackburn. OK. With that, I am going to yield back my 
time, Mr. Chairman, so we can move on with the rest of the 
questions.
    Mr. Burgess. Appreciate--the gentlelady yields back. Chair 
recognize the gentleman from Massachusetts, Mr. Kennedy, 5 
minutes for questions, please.
    Mr. Kennedy. Thank you, Mr. Chairman. And, again, thank you 
to the witnesses for testifying. I appreciate the information 
that you have already offered us today, and as we go through 
this process.
    The FCC has enacted strong regulations to implement their 
authorities under the Communications Act, and I know you have 
touched on that a little bit already. These regulations require 
telecommunications providers to implement a number of specific 
privacy and security measures to protect consumer proprietary 
information. I wanted to walk through, with both of you, a 
little bit about some of those requirements so we can flesh 
this out a little bit.
    So, Mr. Johnson, these regulations require that 
telecommunications carriers take steps not only to secure 
customer information, but also discover attempts to gain 
unauthorized access to that information, isn't that right?
    Mr. Johnson. That is correct.
    Mr. Kennedy. So carriers also, then, must authenticate a 
customer before providing customer information over the phone, 
online, or in a store as well?
    Mr. Johnson. That is correct.
    Mr. Kennedy. Carriers are required to train their employees 
in the use of that customer information, is that right?
    Mr. Johnson. That is correct.
    Mr. Kennedy. OK. Are there some other things that are 
required under the FCC's regulations that you would like to 
highlight as well?
    Mr. Johnson. In addition to those that you laid out, 
Congressman, carriers are also required to discipline abuses 
and to certify compliance with these rules. And, if I may, I 
would add to that the distinction between enforcement and 
rulemaking clarity. Of course enforcement is a crucial part of 
compliance, and the FCC has an Enforcement Bureau that is very 
active in this space, as is the FTC in the--we partner together 
on--in many areas, and expect to in the future as well.
    The distinction between the present protections in 222 and 
an enforcement only approach is that the FCC, or in this case, 
the FTC, if this bill were to be enacted, the FCC presently has 
the ability to get out and engage the public, the providers, to 
work together through advisory committees, through rulemaking 
processes, through a whole host of measures, to make clear what 
the challenges are and what the solutions are before there is a 
problem. So instead of post hoc enforcement only, there is a 
solving the problem before it happens, or once it has been 
spotted, in the case of pre-texting, Mr. Chairman, that you can 
go after this problem, and seek to solve it, instead of just 
post hoc----
    Mr. Kennedy. So proactive versus reactive, right?
    Mr. Johnson. That is right.
    Mr. Kennedy. So would those requirements be preempted under 
the current legislation?
    Mr. Johnson. They would be eliminated.
    Mr. Kennedy. So, Ms. Rich--thank you, Mr. Johnson. Ms. 
Rich, if, for example, a telecommunications provider disclosed 
the number of calls that I made from a specific phone number to 
a third party, would the FTC be able to bring an enforcement 
action under this bill?
    Ms. Rich. We believe that should be added to the bill.
    Mr. Kennedy. OK. And would the FTC be able to require that 
telecommunications providers not disclose that information 
unless they obtain customer consent, or should that be added as 
well?
    Ms. Rich. Well, that would be a privacy provision, so I am 
not sure it would be addressed by this bill. But--and I don't 
think that would be preempted by this bill, the privacy 
provisions of the CPNI rules. But, in any event, we do think 
communications should be added to the bill as an element--a 
data--a piece of data that should be covered.
    Mr. Kennedy. OK. I appreciate the feedback. Thank you very 
much, and I yield back.
    Mr. Burgess. Gentleman yields back. The Chair now will 
recognize the vice chair of the subcommittee, Mr. Lance. 5 
minutes for questions, please.
    Mr. Lance. Thank you, Mr. Chairman. Good morning to you 
both.
    To Ms. Rich, the FTC has been a strong advocate for 
protection of Social Security Numbers, and has often indicated 
that Social Security Numbers are closely tied to identity 
theft. I don't think there is any doubt about that. How many 
State data security and breach notification bills include 
Social Security Numbers alone as personal information?
    Ms. Rich. We have that information, but I don't have it at 
my fingertips, but we would be happy to provide it to the 
committee.
    Mr. Lance. Thank you very much. Mr. Johnson, did you have 
an opinion on that?
    Mr. Johnson. I don't know the answer to that----
    Mr. Lance. Certainly. Thank you. To Ms. Rich, do you 
support the inclusion of standalone Social Security Numbers as 
personal information in the draft legislation?
    Ms. Rich. Yes. We were very happy to see that in the bill.
    Mr. Lance. Thank you. And are these data elements not 
listed in the draft legislation that the FTC has seen tied to 
identity theft and payment fraud? Are there any data elements 
not listed in the draft legislation that you would like to see 
in it?
    Ms. Rich. Yes. In addition to Social Security Number, 
driver's license and passport number, and other Government-
issued numbers can also be used to perpetrate identity theft, 
so we would like to see that information protected standalone, 
and now it needs to be coupled with other information.
    We have also believed that health insurance numbers can 
lead to medical identity theft, where people place charges in 
hospitals billed to other people, and it can really accumulate, 
and they can do that with simply health insurance numbers. And 
I believe those are the main elements, besides health and 
geolocation, which we are not talking about identity theft, we 
are talking about other information that should be protected. 
But those are the main additional elements.
    Mr. Lance. So, to reiterate, other than Social Security, 
driver's license, and then health identification numbers?
    Ms. Rich. Yes.
    Mr. Lance. Thank you. Mr. Chairman, I yield back the 
balance of my time.
    Mr. Burgess. Chair thanks the gentleman, the gentleman 
yields back. The Chair recognizes the gentleman from Vermont, 
Mr. Welch. Five minutes for questions, please.
    Mr. Welch. Thank you very much. And I thank the witnesses 
for your very helpful testimony. Just by way of introduction, I 
think we have got some areas of real agreement here. Number 
one, bipartisan agreement that this is a brutal problem. Number 
two, it is the Wild West. There is no clarity about who is in 
charge, or what the enforcement is. Number three, there is a 
desire to get things done that are going to add protection, 
rather than take it away.
    There is some disagreement on policy matters. Like, for 
instance, you, Ms. Rich, indicated you want, as you call it, a 
stronger trigger notice, and where that balance is--you used 
that word, balance, that is a debatable proposition. You know, 
I happen to think that the notice provisions under Gramm-Leach-
Bliley--I don't know if you have refinanced your mortgage at 
all, but you get so much information it is useless, so I want 
to balance where consumers are protected and notified but not 
terrified, and that is a discussion in a debate.
    But there are other areas where--for instance, with Ms. 
Schakowsky, she raised what I thought were some really valid 
concerns, and this is with respect to the transition of 
authority. Because my view of the language is that the CPNI 
that would go to the FTC, you would have that enforcement 
authority. And the bottom line for me is the concern, which I 
think is what Ms. Schakowsky was expressing, do we protect the 
consumers, as opposed to who is in charge.
    And I actually do share that, but the privacy provisions 
that you were talking about, Mr. Johnson, my understanding, and 
I think, Ms. Rich, you testified to this, the privacy 
provisions that FCC has would be retained, and not preempted, 
correct? That is your view, Ms. Rich?
    Ms. Rich. I would defer to my colleague on that.
    Mr. Welch. No, I want to ask you, because if we have, 
essentially, a situation where we think we are in agreement, 
but we have language that we are uncertain meets the agreement 
that we think we have, then that is a different--the nature of 
that is a different challenge. It is like trying to get the 
language right. And I appreciate Ms. Blackburn and Mr. Burgess 
for focusing on, you know, trying to define what the problem 
is, rather than create additional problems. But my 
understanding of your testimony was that you believe that 
privacy was not preempted, correct?
    Ms. Rich. If I have the current version of the legislation, 
I thought I saw in there that the privacy provisions of the 
CPNI rules, and other portions of the Communications Act, were 
retained.
    Mr. Welch. Right. And, Mr. Johnson, is that your view as 
well?
    Mr. Johnson. Yes, sir. I do think that that is--the 
language attempts to divide privacy from security.
    Mr. Welch. All right. So let us say we got the language 
right to your satisfaction, and the FTC took over authority for 
CPNI, and you retained--the FCC retained the current 
jurisdiction it has for privacy. From an agency standpoint, 
that might not be your preference, but from a consumer 
standpoint, you would still be holding folks harmless with a 
new enforcer on some of the elements, is that right?
    Mr. Johnson. Sir, I would actually say that it is not 
possible to divide privacy from security, because in most cases 
the security of information is the privacy of the information, 
and vice versa. So, for instance, if you have an insider 
threat, if there is a bad actor in your company, or a mistaken 
actor in your company, and that person has authorized access to 
the information, but then mishandles it, or commits some sort 
of----
    Mr. Welch. OK, I am--I appreciate that, and I am going to 
ask you to help us here, because the spirit that our chairman 
has provided here I think is really good. The big problem for 
everyday people in Vermont is their financial information. A 
lot of these other things that you have mentioned, they are 
important, and we have got a lot of work in this Congress to 
deal with privacy questions----
    Mr. Johnson. Um-hum.
    Mr. Welch [continuing]. But 90 percent of the problem for 
100 percent of the people is loss of their identity and their 
financial information. And, you know, the bad guys out there, 
that is what they want.
    Mr. Johnson. Um-hum.
    Mr. Welch. If they want my Social Security Number, it is 
not for any reason other than to get to my bank account.
    Mr. Johnson. Right.
    Mr. Welch. So I think the focus here of a narrow approach 
that Mr. Burgess has adopted, I think, makes some sense. Now, 
if there--we don't want to lose rights that people have, but we 
may need the help of the FTC and the FCC to write that language 
so that we accomplish this goal that we are accepting is 
narrow, but without compromising other rights.
    Mr. Johnson. I----
    Mr. Welch. So----
    Mr. Johnson. And I--if I may, sir, I, of course, commend 
you, and all of you, for trying to tackle this issue. When I 
was a Senate staffer on the other side, I tried it as well, and 
we didn't quite get there. The two things with regard to 
consumer protections that I would like to mention are, number 
one, with regard to communications consumer protections, it is 
a different type of information.
    And I think you will hear in this next panel some very 
expert, knowledgeable witnesses say that data is data, a server 
is a server, and I would just respectfully disagree that, with 
regard to call data, with regard to data that flows over 
networks, cable/satellite, it is specific to the network 
engineering, and how these networks actually----
    Mr. Welch. All right. My time is running out, but here is 
the one request I am going to make of you. You have identified 
a problem. We need you to identify a solution, because this is 
not a policy difference that you are describing now. This is a 
practical challenge that you are describing. Let us get your 
help in solving that.
    Mr. Johnson. Absolutely.
    Mr. Welch. I yield back.
    Mr. Burgess. Chair thanks the gentleman. Gentleman's time 
has expired. The Chair recognizes the gentleman from Texas, Mr. 
Olson. Five minutes for questions, please.
    Mr. Olson. I thank the Chair. Welcome, Mrs. Rich, and Mr. 
Johnson. Sadly, data breaches have become common news. Just 
this morning we learned about Primera Health Care. 12 million 
of their customers lost their data, had it exposed to hackers. 
They were attached in May, discovered the attack in January, 
and found out recently what had happened. We can do better, but 
we need to take a balance approach to data breach 
notifications. We have to protect consumers, but we can't be a 
burden to companies and hinder the legal uses of data.
    This draft doesn't fix all the problems, but it is a small 
but important step in the right direction. I have a few 
questions for you this morning. The first ones are for you, Ms. 
Rich. How many people work in your division in the FTC?
    Ms. Rich. We have a privacy division of about 45 people, 
but we have a number of regional offices, and a number of other 
offices that work on various privacy issues, like Do Not Call, 
or privacy issues related to financial information, so we have 
quite a number of people working on privacy. We, of course, 
could always use more, but--yes.
    Mr. Olson. How many folks on data security? All 45, or more 
than 45? And how many people focus on data security within the 
FTC, or your division?
    Ms. Rich. I don't have at my fingertips exactly, but almost 
everyone in the division works on both privacy and data 
security. And then, as I said, there are people in other parts 
of the agency who also work on these issues. So--I can get you 
more information, if you would----
    Mr. Olson. Thank you.
    Ms. Rich [continuing]. Like, but--yes.
    Mr. Olson. Do they determine what a reasonable data 
security practice is? Do they do that, as a matter of policy?
    Ms. Rich. We have standards that we have put out, both in 
our original Gramm-Leach-Bliley safeguards rule, in all of our 
complaints and orders. As I said, we lay out a process that is 
reasonable security. We consider, you know, various factors, 
like the sensitivity and volume of data, et cetera, and the 
staff attorneys who work on this follow the standards that we 
follow throughout the agency, and that we have announced to the 
public in particular cases.
    Mr. Olson. Do they make sure companies use good practices? 
If so, how do they do that, ma'am?
    Ms. Rich. We--in investigations, we evaluate whether 
reasonable security was followed, and whether these types of 
processes I talked about was--were followed.
    Mr. Olson. And I am sure you have to have people with very 
special skills. How hard is it to find those people? Is that a 
problem for you, ma'am, need more people with the skills to go 
after these hackers?
    Ms. Rich. We have very well trained attorneys and 
investigators. We also have a lab unit that helps with--if 
there is any forensics involved. And we have experts and 
technologists, both on staff, and that we consult with.
    Mr. Olson. Thank you, Ms. Rich. Mr. Johnson, for you, my 
friend, how many folks in your department work on data 
security? Not cybersecurity, but data security, within the FCC?
    Mr. Johnson. Congressman, I can get you a specific answer. 
It is not divided quite as neatly for us as it is at the FTC, 
in the Consumer----
    Mr. Olson. Ballpark, 10, 20, 30?
    Mr. Johnson. I would say dozens of people work on various 
aspects of this in the Public Safety Bureau, that is the bureau 
that I am in, in the Enforcement Bureau, also the Wireless 
Bureau, the Wire Line Bureau, the Media Bureau. It is an issue 
that covers--in the Consumer Protection Bureau, essentially 
every bureau of the FCC has a role in this in some form or 
fashion.
    Mr. Olson. And how about finding really qualified people? 
Hard time finding the people and skills you need at the FCC to 
do your job with these data breaches?
    Mr. Johnson. I would say that the FCC is--has the most 
qualified network engineers and communications lawyers, and, 
importantly, communications economists that I have run across. 
It is an expert agency in the communications field.
    Mr. Olson. So it sounds like you balanced enforcement with 
the market, communications, economics, and so you are actually 
a partner in this endeavor, so thank you for that. I am out of 
my time. Yield back.
    Mr. Burgess. The Chair thanks the gentleman. The Chair now 
recognizes the gentleman from Illinois, former chairman of the 
subcommittee, Mr. Rush. Five minutes for questions, please.
    Mr. Rush. Thank you, Mr. Chairman. I really am enjoying the 
input, and the conversation both ways, in regards to this 
particular matter. I view the issue before us as an issue that 
is really--that we have to maintain the understanding that data 
security and privacy are really like two sides of the same 
coin, and we can't bifurcate these two issues.
    I think we have to proceed with, really, the understanding 
that, in order to be forced to really serve the American 
people, and begin to deal with this issues--these issues that 
they are confronted with, both in terms of privacy and also 
data security, that we can't waste our time in trying to 
separate these two issues. And I don't think the outcome would 
be an outcome that we want to achieve, and that would really 
help us out in the problem that all of us are vitally concerned 
about.
    I want to ask Ms. Rich, recently the FC announced that 
broadband providers would be regulated as common carriers. 
Under these particular rules, if a broadband provider were to 
be the subject of a data breach, which agency would have 
primary responsibility for ensuring that any Federal standard 
is enforced? And, Mr. Johnson and Ms. Rich, I want you to 
answer those question--this question, beginning with you, Ms. 
Rich.
    Ms. Rich. Prior--we have not taken a position on 
reclassification generally, but, as I mentioned, a byproduct of 
it is we--it limits our ability to protect consumers when the 
companies that perpetrate the violations are broadband 
providers. So if a broadband provider had a breach, and it 
was--pertained to their provision of broadband service, and not 
some ancillary service, we would no longer be able to protect 
service in that area. We would like, of course, to have 
somebody, maybe somebody here, restore that jurisdiction to us. 
We don't, however, object to the reclassification.
    Mr. Rush. Mr. Johnson, what are your----
    Mr. Johnson. Congressman----
    Mr. Rush [continuing]. Comments?
    Mr. Johnson. We are--my focus in work, and also at this 
hearing, is the--is--are the provisions that pertain to data 
security of communications data. I am certainly aware of the 
effect that Title II reclassification has, particularly on 
Sections 201, 202, and 222. And. if it is OK with you, I will 
leave it at that, because I have never practiced law with 
regard to the Federal Trade Commission Act, and I will defer to 
the Federal Trade Commission, and----
    Mr. Rush. OK. Well, thank you so much. Ms. Rich, can you 
clarify one piece of your testimony, if you will? You are 
advocating to lift the common carrier exemption, but not to 
take away regulatory or enforcement authority from the FCC, am 
I correct? That is--how would that be done? What do you 
suggest?
    Ms. Rich. Well, we share jurisdiction with a lot of 
different agencies in a lot of different areas, and, you know, 
we have--for example, with the CFPB, we have an MOU with them. 
We have, for years, shared jurisdiction with the FCC as to do 
not call. We did share jurisdiction over broadband providers, 
proprietor re-classification, and we can successfully 
coordinate, and make sure there is no duplication.
    So what we are saying is we think, as the agency that is 
most experienced in the data security area has can be very 
effective in protecting consumers that we should be--we should 
have jurisdiction over carriers, but that we--that the FCC--the 
majority of our commission believes that that doesn't mean the 
FCC shouldn't--should be displaced in its jurisdiction.
    Mr. Rush. OK. Is there--in terms of the--your practice that 
you have regarding these memorandum of understandings, does 
that create a burdensome issue for the consumer? Is there--does 
that complicate their lives, or----
    Ms. Rich. No, not for the consumer at all. In fact, the 
consumer potentially has two cops on the beat. But what the 
MOUs and the coordination is usually for is to make sure that 
there is no duplication and burdens created for businesses. For 
example, the two agencies, without communicating with each 
other, both investigating the same company at the same time.
    Mr. Rush. Mr. Johnson, you want to comment on----
    Mr. Johnson. I think she stated it very well, sir.
    Mr. Rush. Mr. Chairman, thank you, and I yield back.
    Mr. Burgess. Chair thanks the gentleman, the gentleman 
yields back. The Chair recognizes the gentleman from Kansas, 
Mr. Pompeo. Five minutes for questions, please.
    Mr. Pompeo. Thank you, Mr. Chairman, and thank you both for 
being here today. I suppose I am not surprised, but I am 
troubled by how little conversation there has been this morning 
about cost to consumers. When you talk about protecting 
consumers, there is very little discussion about what this will 
mean, right? If a business is paying money, it gets passed 
along, and there is just remarkably little discussion about 
what it really means to someone who can least afforded whatever 
services that we are dealing with. I think that is very 
important.
    I would hope that the two of you would appreciate that too, 
but instead what I get is two Government agencies, each of 
which wants increased authority, increased power, more control, 
the capacity to define rights, sort of the historic 
governmental actions. I would hope, when you think about the 
consumers that you are tasked to oversee that you would at 
least consider their economic well-being as well.
    Ms. Rich, in that vein, you have asked for a--you said that 
the definition contained--really, the notice provision, you 
weren't happy with it. You suggested alternative language. You 
said you would support an approach that ``requires notice, 
unless a company can establish there is no reasonable 
likelihood of economic, physical, or other substantial harm''. 
So you have flipped the burden of proof now to the consumer, 
right? Right, to the business which they have contracted with 
to demonstrate that there is no harm. What do you think the 
cost of a change like that would be?
    Ms. Rich. I think the burden is already flipped in the 
draft. All we are proposing is that the--instead of it being 
limited to financial harm, that it be--include economic, 
physical, or other substantial harm.
    Mr. Pompeo. Fair enough. I want to go on to Mr. Johnson. 
Mr. Johnson, you--I think in response to a question you said 
that there were--you didn't know the exact date, or you were 
going to bring us that, but you said there were scores of 
cases? Is that right?
    Mr. Johnson. Yes, sir, of----
    Mr. Pompeo. That you brought? And you identified two in 
your written testimony, if I got it right. Is----
    Mr. Johnson. I think the--if I remember correctly, the two 
that are in the footnote in the written testimony----
    Mr. Pompeo. Right.
    Mr. Johnson [continuing]. Were just two examples from last 
year that were concluded. I--we are--I would draw a distinction 
between cases that are investigated, cases that are pursued, 
cases that are settled, and not necessarily cases that all end 
in a----
    Mr. Pompeo. Are these the only that have--that are of 
record? You said there are ``scores and scores.'' There are two 
identified. Are there others that you could have put in this--
--
    Mr. Johnson. Absolutely. Yes, sir, and I committed 
earlier----
    Mr. Pompeo. And would any of those have actually been data 
breaches? Because neither of these, as described in your 
testimony, are actually what we are dealing with here today.
    Mr. Johnson. Well, I think the----
    Mr. Pompeo. One is a Do Not Call case, according to your 
testimony, and one was a violation of----
    Mr. Johnson. Yes, sir, your question underscores the 
distinction that we think is important with regard to 
communications data. It is not just breach of Social Security 
Numbers or credit card numbers. It is information about what 
people do on the telephone, what do they do with cable and 
satellite TV, and it is a much broader set of data that is 
specific to the networks that hold, and manage, and deliver 
that data.
    So it is harder for us to hone in on, this was a data 
breach of Social Security Numbers, than it is to talk about how 
we prospectively and proactively protect the consumer in a way 
that is actually, I think, to your original point, is cost 
effective, because it allows us to engage ahead of time with 
the providers. And I can give a number of examples about how we 
do that in a way that aligns it with business interests to 
protect the consumer, while also letting the companies sort 
of----
    Mr. Pompeo. Yes.
    Mr. Johnson [continuing]. Lead the solutions, yes.
    Mr. Pompeo. I am not sure I agree with you. I went back and 
read the Notice of Apparent Liability that you have issued, and 
the language you used implies that if you have a breach, then 
your security is, per se, unreasonable, and your privacy policy 
is deceptive. Is that the FCC's position?
    Mr. Johnson. I don't know the exact line that you are going 
at there, but do you know which action you are referring to, 
sir?
    Mr. Pompeo. I do, but I want to go more generically. I want 
to kick it out from the particular case. Is it the case that it 
is the FCC's view that it is, per se, unreasonable, and your 
privacy policy is deceptive, if there was a breach?
    Mr. Johnson. No, sir, I don't think that is the case. In 
fact, in our rules, on the 222 side, it requires reasonable 
measures to discover and protect against unauthorized access.
    Mr. Pompeo. Great. Thank you. Mr. Chairman, my time is up. 
I yield back.
    Mr. Johnson. If I might, sir, the one additional note is 
that on the cable/satellite side, and this is another 
distinction with the bill, the standard is not just reasonable. 
It is as necessary to protect, so it is a much higher standard 
in the cable/satellite viewing preferences case.
    Mr. Pompeo. Thank you.
    Mr. Johnson. But I wouldn't say it is a per se violation.
    Mr. Burgess. Chair thanks the gentleman. Gentleman's time 
has expired. The Chair recognizes Mr. Cardenas. Five minutes 
for questions, please.
    Mr. Cardenas. Thank you very much, Mr. Chairman. I want to 
thank the witnesses for all of your service. It is an issue 
that is becoming more and more important. But one thing that I 
would like to underscore is that I look at this as similar to 
what we all, as Americans, thankfully, take for granted, that 
in any community we have Government police. And let me tell 
you, when communities hire private policing, or what have you, 
talk about things getting out of control, and talk about 
lowering the standard of the kind of security that community 
has.
    There is certainly a drastic difference between hiring a 
security guard versus calling 911 and having the true police 
force show up. So I want to thank both of you, and both of your 
departments, for what you do for us to keep us safe. And 
certainly to keep the cost effectiveness of your purpose I 
believe is about American consumers, and making sure that we 
fortify you with the resources you need so you can have the 
intelligent individuals, and the hardworking individuals to go 
ahead and make sure that breaches don't happen as often as 
possible, we can be preventative.
    Because let me tell you, what we pay in taxes is nothing 
compared to the person who gets their information breached. 
They lose their house, their entire credit report goes to the 
wastebasket, and they lose everything. And then in many, many 
cases it is years and years and years before that individual, 
or that family, can actually get back to being right, and their 
entire reputation is, again, goes to the wastebasket. As far as 
on paper, people think of them, because their bank account was 
cleaned out, they couldn't pay their mortgage, they lose their 
home, they can't run their business, or what have you, because 
they no credit, they can't get access to capital, et cetera. So 
let me tell you, when you--when we allow you to do your job 
well, I think that less and less of that does happen to our 
American public.
    So, with that, I only have time for perhaps one question. I 
want to refer back to the--FTC recently released a staff report 
on Internet of things. The Internet of things refers to the 
ability of devices to connect to the Internet, and send and 
receive data. As the report acknowledges, many of these devices 
are vulnerable to being hacked. About 60 percent of web enabled 
devices have weak security, and that is what has been reported.
    In September of 2013, the FTC took its first action against 
an Internet of things company when it brought a complaint 
against TRENDnet, a company that manufactures web-enabled 
cameras, for misrepresenting the security of its cameras. In 
that case, it was not personal information in electronic form 
that was accessed, but rather live feeds from the cameras, 
including the monitoring of babies.
    So, Ms. Rich, do you agree that reasonable security 
measures include implementing procedures and practices that 
limit the ability of hackers to remotely access control 
Internet connected devices?
    Ms. Rich. Yes. You have touched on two things that are very 
important to us about this bill. First, device security. That 
is--it is because of our work on the Internet of things that we 
realized that it is very important to security devices so they 
can't--even regardless of the personal information involved, 
they can't be taken over and used in ways--for example, medical 
devices that--or automobiles, which I discussed in my--at the 
beginning to hurt consumers.
    And also, TRENDnet--our case against TRENDnet was an 
example where it wasn't financial data that was exposed, it was 
pictures of very private things happening in homes, and that 
kind of sensitive information does need to be protected.
    Mr. Cardenas. OK. Thank you. Ms. Rich, what type of access 
control measures would limit the ability of hackers to remotely 
accessing controlled devices, and how could companies implement 
those measures to make consumers safer?
    Ms. Rich. We believe the legislation should actually just 
include a reference to protecting device security in order to 
make sure the--that is--that devices are protected from that 
kind of interception.
    Mr. Cardenas. And also, generally, are the people who have 
been attempting to hack, and it is my understanding that it is 
in the millions and millions of attempts per year on American 
companies, and on our Government, et cetera, are those hackers 
limited in their budgets? Do they seem to have a limited budget 
per year, and they stop doing what they do, and they wait until 
next year's budget?
    Ms. Rich. There are very sophisticated hackers out there 
who are very motivated, and many of them aren't even in this 
country. And many of them do these--they are so good at what 
they do, they don't actually require a huge budget.
    Mr. Cardenas. OK. I don't know if we could ever even the 
playing field, but I would love to see that we fortify you with 
the resources you need to protect us. Thank you very much, Mr. 
Chairman.
    Ms. Rich. Can I just add something? I want to make sure--I 
feel like I have been too modest in the way I described our 55 
cases, because those were completed cases that ended in an 
order. And if we did include investigations, and all of the--
and closing letters, and all of the activity we engage in that 
doesn't lead to a signed order, there are hundreds of data 
security cases.
    Mr. Burgess. The Chair thanks the gentlelady for the 
clarification. The Chair now recognizes Ms. Brooke from 
Indiana. Five minutes for questions, please.
    Mrs. Brooks. And I want to thank all of the witnesses for 
valuable time educating the public, educating all of us on the 
proposed changes to further safeguard sensitive consumer 
information by providing the timely to these individuals. Also 
want to commend the chairman on all the work that has been 
done. As a new member to Energy and Commerce, I know there has 
been a lot of work done over the years, and, obviously, the 
growing nature of cyberinfrastructure in all of our lives, it 
makes this so very important.
    I have to tell you, we did--before the hearing today, in 
2014 alone, the Indiana Attorney General's Office received more 
than 370 data breach notifications, and more than 1,300 
identity theft complaints in Indiana. Actually--that was, 
actually, I thought, kind of low, considering many of us have 
just received notification from our insurance company about the 
breach in Indiana of potentially up to 80 million customers.
    But I want to ask, from your perspective, Ms. Rich, at the 
FTC, how does a national security standard in the draft bill--
wouldn't a national security standard help consumers, in 
theory? And--because I am not hearing that you are interested 
in a national security standard, but that, in fact, we should 
continue to allow 47 to 50 different State standards to be in 
place. Talk to me about a national security standard, and what, 
you know, what your thoughts are on that. Because I am not 
hearing that you are in favor of that.
    Ms. Rich. We absolutely agree that a national security 
standard would be helpful. It would make very clear what the 
expectations are. It would fill the gaps, not--only 12 States 
have data security laws, even though 47 have data breach laws, 
if I am up to speed on all the laws that have passed. But we--
--
    Mrs. Brooks. Could you----
    Ms. Rich. We absolutely----
    Mrs. Brooks [continuing]. Explain to us the distinction 
between data security laws versus data breach laws?
    Ms. Rich. I just want to qualify what I was saying, and 
then I definitely----
    Mrs. Brooks. OK.
    Ms. Rich [continuing]. Will. But we are concerned about a 
national standard if it would water down protections that are 
currently in place today, which is why we are suggesting some 
modification to this discussion draft to strengthen it, so that 
it wouldn't weaken the protections in place today. Because if 
it preempts the State laws, and the main thing there is health. 
To preempt State laws that provide data security for health 
information, and that is already provided now, then there 
won't--there would be fewer protections for health information. 
So that is our concern. But yes, in theory, we absolutely do 
support a national standard.
    In terms of the difference between data security and data 
breach, data security is protecting the data so there isn't a 
breach. And, in fact, the FTC's focus has been chiefly on that, 
not as much breach notification, in part, because we don't have 
breach notification authority, except in a narrow area. So data 
security is very, very important, and that is why, right at the 
outset, I thanked the subcommittee for including data security, 
and not just data breach notification, which is, you know, 
after the breach happens you tell consumers, but the horse is 
already out of the barn.
    Mrs. Brooks. Can you explain--in your prepared testimony 
you talked about it is critical that companies implement 
reasonable security measures in order to prevent data breaches. 
Can you elaborate? I was just Googling to try to find out what, 
under FTC, reasonable security measures mean. And I know that 
is a broad question, but yet--can you please, you know, share 
with us what reasonable security measures mean to the FTC? 
Because that is actually how you determine which cases to take 
or not take. Is that not really the crux of the issue?
    Ms. Rich. Yes. So we--in reasonableness, we are referring 
to a bunch of factors which we have laid out again and again. 
The sensitivity and volume of information involved, you might 
want to have stronger security if you are talking about, you 
know, Social Security Numbers, than simply what, you know, size 
dress a person wears. The size and complexity of the data 
operations, a small company won't need to put as many 
protections in place if they have smaller data operations. And 
the cost of available tools to secure data and protect against 
known vulnerabilities. If there are not available tools out 
there that a company can learn about and use, it would not be--
even if it could cause harm to consumers, it would not be 
reasonable to expect them to have known that.
    Now, those are factors to look at, but we also really 
emphasize a process-based approach. Because if you undertake a 
responsible process, you should be able to get to the outcome 
of reasonable security. And also, process-based approach is 
tech neutral, so put somebody in charge. I was talking about 
this a bit earlier. Make somebody responsible. Somebody should 
be lying awake at night, worrying about this. You know, do a 
risk assessment. Put procedures in place to address those 
risks, focusing on such areas as training. Oversee your service 
provider. Periodically do evaluations and updates of your 
program. If you do those procedural things, and read all the 
information out there that provide guidance on what is 
reasonable security, you should be able to get to the 
reasonable security outcome.
    Mrs. Brooks. Thank you very much, and I look forward to 
also learning, in the future, Mr. Chairman, how the FTC--we are 
all focused on preventing the breach, enforcing if there has 
not been adequate security. I would love to know more about 
what we are doing to go after the hackers, and whether we never 
hear that we ever catch the hackers. Thank you, and I yield----
    Mr. Burgess. Chair thanks the gentlelady for that 
observation. Chair recognizes the ranking member of the full 
committee, Mr. Pallone. Five minutes for questions, please.
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to ask Mr. 
Johnson these questions. I have a lot, so I am going to try to 
go through it quickly, if you could answer quickly. If this 
bill were to pass, Sections 201, 202, and 222 of the 
Communications Act, and all associated regulations, which 
include broad consumer privacy and data security protections, 
would no longer be in effect with respect to security of data 
in electronic form and breach notification.
    So, Mr. Johnson, can you walk us through some examples of 
the types of consumer information that could have been required 
to be protected by Internet service providers under those 
sections? You know, first start, you know, could Internet 
browsing history have been protected?
    Mr. Johnson. Well, I think that section, Section 222, has, 
for 18 years, been focused mostly on telephone communications. 
As of last month, the Commission's reclassification of 
broadband Internet access service expanded 222 to broadband 
providers, and there are presently no specific rules in place 
that pertain to the broadband service providers.
    But I think that underscores the value of having public 
notice and comment rulemaking procedures to determine what 
exactly--what precisely that requires in----
    Mr. Pallone. So would you say that Internet browsing 
history could have been protected? Yes or no.
    Mr. Johnson. It could be, potentially.
    Mr. Pallone. All right. How about the unique identifiers 
for wireless devices?
    Mr. Johnson. By unique identifiers, could you tell me a 
little bit more?
    Mr. Pallone. Well, just tell me what you think would be 
protected, or could be protected----
    Mr. Johnson. Well, what would----
    Mr. Pallone [continuing]. If it isn't at this point.
    Mr. Johnson. The bill does transfer some of the protections 
for CPNI for call records data to the FTC, but what it doesn't 
transfer is a number of other things that pertain to the call 
service. And this is just on 222. For instance, how many calls 
a person makes in a day, what time they call, specific features 
of their call service, call waiting, caller ID. And, 
importantly, things that are not related to the telephone 
calls, but could be related to the service that they have, 
their financial status, whether they are low income. And that 
is just on 222. The bill also would remove all of the existing 
protections for cable and satellite and television viewing 
history, and related information.
    Mr. Pallone. So let me just ask a couple more. I know there 
are only 2 minutes. If the bill were enacted, the FCC would not 
be able to require Internet service providers to protect 
sensitive customer information?
    Mr. Johnson. I think that is true. I think that is----
    Mr. Pallone. And the FCC would not be able to bring 
enforcement actions against Internet service providers that did 
not protect that information?
    Mr. Johnson. I think that is correct.
    Mr. Pallone. And as you read this bill--and this is really 
the most important thing. As you read this bill, with regard to 
Internet service providers, would there be any protections for 
these types of customer info, beyond what is listed as personal 
information, in the definition section?
    Mr. Johnson. I think there would not be beyond that 
definition, which is specific to financial harm and fraud----
    Mr. Pallone. All right.
    Mr. Johnson [continuing]. And identity theft.
    Mr. Pallone. All right. Thanks so much.
    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back his time. The Chair recognizes the gentleman from 
Mississippi, Mr. Harper. Five minutes for questions, please.
    Mr. Harper. Thank you, Mr. Chairman, and thank you both for 
being here. Ms. Rich, I just have a question. The legislative 
draft calls for uniform data breach and information security 
requirements housed at the FTC, including leveling the playing 
field by bringing telecommunication, cable, and satellite 
providers under the FTC regime. In your opinion, is the FTC the 
appropriate agency to oversee data security for the Internet, 
how shall we say, ecosystem?
    Ms. Rich. We have been the lead agency on data security for 
now over 15 years, and we believe we should continue to provide 
that leadership, which is why we appreciated nonprofits being 
in the bill, and we appreciated carriers in the bill. The bill 
even, though, recognizes that others have a role to play. It 
allows the States to enforce, even if--as it preempts, it 
allows the States to enforce, and we would welcome that 
partnership with the States.
    And as I mentioned before, we are--want to have common 
carrier authority so we can protect consumers, but we would 
be--we don't believe we should displace the FCC, or the 
majority of the Commission don't believe we should displace the 
FCC, so we would like to partner with them too in protecting 
consumers in the carrier area.
    Mr. Harper. Thank you, Ms. Rich, and I yield back the 
balance of my time.
    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back. The Chair recognizes the gentleman from North Carolina, 
Mr. Butterfield. Five minutes for questions, please.
    Mr. Butterfield. Thank you very much, Mr. Chairman. Thank 
you for holding today's hearing. Thank you to the witnesses for 
their testimony. This is absolutely an important issue, Mr. 
Chairman, that many members of this subcommittee are familiar 
with. You know, we have worked over the past few Congresses 
precisely on these concerns. As members of the subcommittee 
know, data breaches are occurring in alarming numbers all 
across the country. Just in North Carolina, our Attorney 
General estimates that about 6.2 million North Carolinians have 
been affected by data breaches since 2005, that is over the 
last 10 years, so I am glad we are addressing this issue today.
    Our good friend and former chairman of the subcommittee, 
Mr. Rush, introduced a bipartisan bill entitled ``The Data 
Accountability and Trust Act'', and during my time as ranking 
member of this subcommittee, I worked very closely with then 
Chairwoman Bono, who I think I see here today, on the Secure 
and Fortify Electronic Data Act. There is plenty of precedent 
for finding bipartisan solutions on this subject.
    There are some issues with the discussion draft before us 
today, and I encourage the majority to work with us so we can 
finally produce meaningful legislation that will give consumers 
the protections that they deserve, and businesses they--that--
and businesses. They certainly need to grow and thrive.
    Let me just address one or two questions to the witnesses. 
I may not take up the full 5 minutes, but I want to discuss the 
APA rulemaking authority for just a moment. One important thing 
about that authority is that it allows an agency, such as 
yours, any agency with that authority, to implement a law over 
time. It is particularly important for laws concerning issues 
in which technical advances are common, and fairly quick, to be 
flexible and agile. As lawmakers, one thing we hate is having 
to revisit a law we recently passed because it is already out 
of date.
    When Congress passed the Children's Online Privacy Law, it 
allowed the FTC to amend the definition of personal information 
through regular APA rulemaking procedures. Mr. Johnson, can you 
explain how the FCC has been able to ensure that Section 222 of 
the Act has stayed relevant at all times? How has Section 222 
been updated to deal with problems over time, such as, most 
recently, when carriers were pre-installing software onto 
devices that had security flaws?
    Mr. Johnson. Yes, sir, and I have already committed to 
providing a detailed timeline of FCC's history with 222, but I 
think that is a--your question is--gets right to the heart of 
the value of having the flexibility and the agility to adapt a 
statute to the changing technological landscape, and also the 
changing public expectations and Congressional expectations.
    So since the--since Section 222 was enacted in 1996, 
entitled ``Privacy of Consumer Information'', there have been a 
number of shifts. Obviously technologically, but also with 
regard to Congressional expectation. The first was in 1999, 
when, as part of the Wireless Communications Public Safety Act, 
the Commission added location information into the protected 
information under Section 222, and that is because 911 location 
accuracy is crucial.
    There was just a--tragically, a woman in Georgia who made a 
911 call on the border of a county line, and neither of the two 
call centers knew where she was, and it cost her her life, and 
this is something that we are trying to improve. And now, under 
a new rule that the Commission voted on earlier this year, 
hopefully soon the location accuracy will include being able to 
pinpoint where a person is, which room in a multi-story 
building they are in if they need help. But there are obviously 
incredibly specific privacy concerns that come with that type 
of location information.
    Mr. Butterfield. Absolutely.
    Mr. Johnson. So that is the type of thing that was added in 
1999, and it has been improved over time, and--including the 
one that you mentioned, with regard to information collected on 
mobile devices in 2013.
    Mr. Johnson. Right. All right. Let me go to Ms. Rich. Ms. 
Rich, your testimony called for FTC to be granted APA 
rulemaking authority to carry out the draft bill. Can you give 
us an example, beyond COPA, where such limited authority has 
allowed the FTC to deal with problems over time? And, finally, 
are there any instances where not having APA rulemaking 
authority inhibited the Commission's ability to effectively 
deal with problems?
    Ms. Rich. The chief reason we want rulemaking authority in 
this area is, as you note, to allow us to adapt the consumer 
protections to make sure consumers are effectively protected, 
even as technology changes. So the Ranking Member mentioned 
geolocation as one type of information that we wouldn't have 
thought to protect not too many years ago, but another example 
is, we now know that the information that is collected through 
facial recognition is very sensitive, and we wouldn't have 
thought of that. It was only recently that it was recognized 
that Social Security Number alone could be used to perpetrate 
identity theft, particularly in the case of children, who don't 
have rich credit histories, and so it is very easy to take the 
Social Security Number, and pass it off as somebody else's.
    So those are some examples of information we wouldn't have 
even known to protect a few years ago. And yes, we have a 
number of instances where we have used our rulemaking to not 
just adapt to change, but to respond when there were needless 
burdens on businesses in a law. We did that in CAN-SPAM. We 
used our rulemaking there. So there are a lot of examples.
    Mr. Butterfield. Thank you very much, and thank you, Mr. 
Chairman, for not calling time prematurely on the witness. 
Thank you.
    Mr. Burgess. Chair thanks the gentleman. Chair recognizes 
the gentleman from Oklahoma, Mr. Mullin. Five minutes for 
questions, please.
    Mr. Mullin. Thank you, Mr. Chairman. Mr. Johnson, I would 
like to spend most of my time, if not all my time, visiting 
with you. Do you believe that a breach of information involving 
a number of someone's calls could maybe lead to theft or 
financial fraud? You mentioned about the cell phones a while 
ago. Do you see this could maybe cause a bigger problem down 
the road?
    Mr. Johnson. As--let me make sure I understand your 
question. Could a breach of call data----
    Mr. Mullin. Of information. A breach of information 
involving the number of someone's call. Could this lead to a 
bigger problem?
    Mr. Johnson. Let me not engage in hypotheticals, but I 
guess you could come up with some scenarios in which a breach 
of nonfinancial telecom information----
    Mr. Mullin. I mean, when you open that box, it leads down a 
road that is unknown. Like you said, you are being hypothetical 
on it.
    Mr. Johnson. Um-hum.
    Mr. Mullin. And I think there is a lot of work that needs 
to be done. Now, obviously we want to protect the consumer. It 
is tragic what you brought up a while ago. I think most of us 
here read about that. We want to be able to protect people. I 
mean, I live way out in the middle of nowhere. My driveway is 
literally a mile long. The only way I get cell phone coverage 
is----
    Mr. Johnson. Best way to----
    Mr. Mullin [continuing]. With the antenna that goes up my 
chimney, and I would want someone to be able to respond. There 
is no 911 address----
    Mr. Johnson. Right.
    Mr. Mullin [continuing]. Where I live.
    Mr. Johnson. Right.
    Mr. Mullin. And I get that. But at the same time, I don't 
want to open it up to exposing us to even a bigger risk. All of 
us live in fear of fraud. The first time I had experience with 
that, someone went to school on my Social Security Number in 
California. At that time, I hadn't even been to California, and 
I got a phone call wanting to know what has happened. So it is 
something that we need to worry about.
    Going on--you pointed out in your testimony, under the 
proposed bill, the FCC could lose rulemaking authority over 
data security. Has there been a--has the FCC effective--have 
been effective in using the authority to protect consumers in 
the 21st century?
    Mr. Johnson. I would say, sir, that this will always be, as 
a cybersecurity--focus of my work is cybersecurity, and has 
been for years--this will always be a work in progress.
    Mr. Mullin. Right.
    Mr. Johnson. We are not going to solve this problem. But I 
would say that I have--since I have been at the FCC, I have 
been very impressed with the clarity of the expectations that 
have developed, particularly on Section 222 of----
    Mr. Mullin. Well, do you know how many regulatory documents 
the FCC has published since '96?
    Mr. Johnson. I don't know. You mean new rules?
    Mr. Mullin. Yes, new rules. Yes.
    Mr. Johnson. We are committed to providing a full list of 
not just rules, but activities.
    Mr. Mullin. Well, according to the Federal Registry, the 
FCC has published nearly 14,000 rules since '96.
    Mr. Johnson. Pertaining to----
    Mr. Mullin. No.
    Mr. Johnson. Overall?
    Mr. Mullin. Overall. Do you know how many of those pertain 
to our 21st century security issues that we are having?
    Mr. Johnson. I would have a ballpark, but it sounds like 
you----
    Mr. Mullin. Give me a ballpark.
    Mr. Johnson [continuing]. An answer.
    Mr. Mullin. I don't, because--seriously, we did a lot of 
research trying to find it, and I really could not find it. In 
fact, my follow-up was, could you provide the information----
    Mr. Johnson. There have been a few rulemakings and 
declaratory rulings on--specifically pertaining to 222, and we 
will get you those exactly.
    Mr. Mullin. Are they being implemented right now?
    Mr. Johnson. Yes, sir.
    Mr. Mullin. Do you know how long it is going to take?
    Mr. Johnson. Well, it is--I--it has been, and will always 
be, an ongoing process, but they are being implemented, and----
    Mr. Mullin. So it takes years to implement this?
    Mr. Johnson. Well, I don't know if I would--I think the 
premise of your question may be that it finishes at some point, 
and the----
    Mr. Mullin. Technology doesn't finish----
    Mr. Johnson. Right.
    Mr. Mullin [continuing]. And it seems like we are being 
very reactive, and we are not being proactive. We are 
responding to issues that happened years ago, and what we are 
trying to do is be in front of it.
    Mr. Johnson. I understand.
    Mr. Mullin. And if we continue to be reactive, how are we 
ever going to get ahead of the game?
    Mr. Johnson. Actually, I think you are absolutely right 
about the need to be proactive, and that is the value of having 
rulemaking authority.
    Mr. Mullin. And I agree with that, but the problem that I 
have is, just recently, the FCC went all the way back to 1930. 
So how is that being proactive? I mean, we are wanting--you are 
wanting to keep the authority and have more authority. We are 
wanting to move forward. We are wanting to start being 
proactive, not reactive. You are making the argument that you 
want to keep it, but the recent actions of going all the way 
back to 1930 to a rule, how in the world, with today's 
technology, is that being proactive?
    Mr. Johnson. You are referring to the open Internet----
    Mr. Mullin. Yes.
    Mr. Johnson [continuing]. Order?
    Mr. Mullin. Of course I am.
    Mr. Johnson. I will stay disciplined and remain in my lane 
on that. My focus is ensuring that the laws and policies are in 
place to ensure that telephone calls go through, that 911 calls 
have----
    Mr. Mullin. So let us finish on this, then. Do you really 
believe the FCC can continue to be proactive, or do you feel 
like you guys are being reactive?
    Mr. Johnson. I think, actually, we are not only trying to 
be, but we are being proactive, and I can give you two 
examples. One is----
    Mr. Mullin. No, my time is out, but I am just going to tell 
you, from my opinion, it looks like we are being extremely 
reactive. Mr. Chairman, thank you. Mr. Johnson, thank you for 
your time. I yield back.
    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back. Chair recognizes the gentleman from Illinois. Five 
minutes for questions, please, Mr. Kinzinger.
    Mr. Kinzinger. Well, thank you, Mr. Chairman, and thank the 
witnesses for being here and spending a little time with us 
today, and thank the chairman for calling this hearing. I 
probably won't take all 5 minutes. I basically just have one 
question. I want to explore the issue of emails, and in this 
draft bill, email, data breach, et cetera. I know in Florida, 
their data breach and security notification law actually allows 
for email addresses, passwords, and--because in many cases many 
people have the same email and passwords into different sites, 
as well as, you know, they use it for login into something 
bigger.
    Ms. Rich, in your testimony you note that within the draft 
legislation the definition of personal information does not 
protect some of the information which is currently protected 
under State law, I would guess that would be part of it with 
the email. Could you please expand on which elements that exist 
in the State law that would be most important for us to 
consider within a Federal statute, and would you include email 
and passwords in that?
    Ms. Rich. I believe passwords are already in there in 
various capacities, but yes, the most important elements would 
be health, geolocation, and email--and communications. And 
device security. And as I mentioned earlier, we have seen 
evidence that passport, driver's license, and other Government-
issued numbers could be used, like Social Security Number, to 
perpetrate identity theft. So that is my list.
    Mr. Kinzinger. So let us talk a little more about email 
address and password. Could an email address and password 
combination, could that lead to economic harm, and how could 
you see that happen? Is it more than just somebody has access 
to your email? Could that lead to bigger economic harm if that 
is stolen?
    Ms. Rich. I can't spin out all the hypotheticals, but email 
address and password could get you into somebody's account, 
allow you to read their emails, allow you to communicate with 
perhaps accounts they have already set up with some sort of 
automated, you know, I know when I interact with accounts, I 
have often set it up, I know this is not a great practice--
security practice, so that I can pretty quickly get on, it 
remembers me. So I think there are probably a lot of scenarios 
we can spin out with email and password.
    Mr. Kinzinger. OK. And do you have any ideas as to, like, 
how do we reach that right balance of, you know, finding out 
what can be breached, and there is a problem, and also 
understand that we don't want to create legislation that is 
entirely too burdensome to people?
    Ms. Rich. I think that the current draft already covers a 
nice broad class of information, and we are very complementary 
of the current draft. These were just a few additional items 
that we believe could cause consumer harm if they are 
intercepted by somebody else. And it is not an endless list. 
These are a few things we believe should be added.
    Mr. Kinzinger. OK, great. And I will yield back a minute 
and 40 seconds, Mr. Chairman.
    Mr. Burgess. Thank you. Chair thanks the gentleman, 
gentleman yields back. Seeing there are no further members 
wishing to ask questions, I do want to thank both of you for 
your forbearance today. It has been very informative. Thank you 
for participating in today's hearing. This will conclude our 
first panel, and we will take a no-more-than-2-minute recess to 
allow the staff to set up for the second panel. Thank you, and 
this panel is dismissed.
    [Recess.]
    Mr. Burgess. Mr. Leibowitz, we will begin with you. Five 
minutes for your opening statement, please.

STATEMENTS OF JON LEIBOWITZ, CO-CHAIRMAN, 21ST CENTURY PRIVACY 
COALITION; SARA CABLE, ASSISTANT ATTORNEY GENERAL, COMMONWEALTH 
OF MASSACHUSETTS; MALLORY B. DUNCAN, SENIOR VICE PRESIDENT AND 
GENERAL COUNSEL, NATIONAL RETAIL FEDERATION; LAURA MOY, SENIOR 
  POLICY COUNSEL, OPEN TECHNOLOGY INSTITUTE, NEW AMERICA; AND 
  YAEL WEINMAN, VICE PRESIDENT FOR GLOBAL PRIVACY POLICY AND 
    GENERAL COUNSEL, INFORMATION TECHNOLOGY INDUSTRY COUNCIL

                   STATEMENT OF JON LEIBOWITZ

    Mr. Leibowitz. Thank you so much, Mr. Chairman. Chairman 
Burgess, Ranking Member Schakowsky, members of the panel, I 
want to thank you for inviting me to testify at this important 
hearing. Chairman Burgess, you and I worked together in the 
past on FTC related health care issues, and you bring a wealth 
of experience to your new role. And Ranking Member Schakowsky, 
you have been a leader on consumer protection issues, going 
back to your work at Illinois Public Action. Just as 
importantly, listening to this--to the panel and the questions, 
I can just tell that both of you are committed to finding 
practical solutions to real problems, which is why you will 
certainly develop many bipartisan initiatives going forward.
    Along with Mary Bono, your former chairman--who is sitting 
over there, your former chairman--I serve as co-chair of the 
21st Century Privacy Coalition. Our group is composed of the 
Nation's leading communications companies, which have a strong 
interest in modernizing data security laws to bolster 
consumers' trust in online services, and confidence in the 
privacy and data security of personal information. We are very 
supportive of the discussion draft legislation and what it 
seeks to accomplish.
    Data security is an issue that I have cared deeply about 
for many years, going back to my time as a commissioner on the 
FTC. In fact, on behalf of the FTC, I testified before this 
subcommittee on this issue back in 2006. In testimony then, and 
it was testimony for a unanimous Federal Trade Commission, we 
urged Congress to ``enact strong data security legislation that 
requires all businesses to safeguard sensitive personal 
information, and gives notice to consumers if there is a 
breach.'' And since then, as you know, the need for legislation 
has only grown dramatically.
    You know all the statistics. Members have mentioned them. 
In 2014 we saw a number of data breaches. Just this morning in 
the Washington Post I read about a hack that may have exposed 
11 million people, Primera customers, and their sensitive 
personal information. And when these breaches happen, they 
typically expose sensitive information. That is what all of the 
members had said in the first panel, how important that 
information is to consumers.
    Data breaches resulting in the exposure of personal 
information can result in substantial harm to consumers. 
Companies that fail to take responsible measures to protect 
this information need to be held accountable. And that is why 
our coalition commends Representatives Blackburn and Welch, for 
releasing the Data Security and Breach Notification Act draft. 
The discussion draft contains elements we believe are essential 
for effective data breach and data security legislation. Let me 
highlight just a few of them now.
    First, the draft includes both breach notification 
standards and substantive data security requirements. While 
notifying consumers that a breach has occurred is important, it 
is ultimately of little value if companies are not required to 
put into place reasonable data security systems to protect 
consumers' sensitive information. In the first instance, these 
security requirements have to be strong, they should be clear, 
and they should be flexible to give consumers confidence, while 
giving companies a fair opportunity to comply with the law.
    And some of this--I was listening to the back and forth 
with Mr. Pallone and the two witnesses earlier. It seems to me 
that some of the information they were talking about that might 
not be covered by the FCC could be covered, and would be 
covered--currently would be covered by the FTC in its UDAP 
statute, its Unfair and Deceptive Act or Practice statutes. We 
can talk about that more in the Q and A.
    Second, the bill would replace the ever-changing patchwork 
of 47 different breach laws with a single Federal standard. A 
single Federal law reflects the reality that data is in cabin 
within individual States, but inherently moves in interstate 
commerce. Consumers in every part of the country are entitled 
to the same robust protections, and companies are entitled to a 
logical and coherent compliance regime, and only a bill with 
State law preemption can accomplish that.
    Third, the draft smartly puts enforcement authority in the 
hands of America's top privacy cop, the Federal Trade 
Commission, while also empowering each State's Attorney General 
to enforce the Federal standard. The Federal Trade Commission, 
under both Democratic and Republican leadership, has, for many 
years, been our country's foremost protector of data security. 
The FTC has brought, and you heard this before from Jessica 
Rich, brought more than 50 data security enforcement actions in 
the last 10 years. And the draft would give the FTC more 
powerful tools, including fining authority, which it doesn't 
have now, to protect consumers and punish companies for 
inadequate protections. And moreover, by empowering State AGs 
to enforce the new Federal standard, the bill will ensure there 
are no gaps in enforcement. I think this bill is better for 
consumers than current law.
    Mr. Chairman, given the President's strong endorsement for 
data breach legislation, as well as the growing support of the 
FTC, we believe you are poised to enact a law that provides 
strong protections for consumers, and holds companies to a 
single robust standard. In short, this measure would provide a 
practical solution to a real problem facing all Americans, and 
I commend members of this subcommittee for working on a 
bipartisan legislation.
    With your permission, I ask that my full statement be put 
into the record. Thank you.
    [The prepared statement of Mr. Leibowitz follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Burgess. Without objection, so ordered.
    Ms. Cable, welcome to the subcommittee. You are recognized. 
5 minutes for your opening statement, please.

                    STATEMENT OF SARA CABLE

    Ms. Cable. Thank you. Good morning, Chairman Burgess, 
Ranking Member Schakowsky, distinguished members of the 
subcommittee. Thank you for inviting me here today to testify. 
My name is Sara Cable, and I am an Assistant Attorney General 
with the Office of the Massachusetts Attorney General, Maura 
Healey, and I am here today on behalf of my office to present 
some of our concerns with the bill.
    My comments today are informed by my office's experience 
enforcing Massachusetts data security and breach laws, which 
are regarded as among the strongest in the country. My office 
works hard to use those laws to protect our residents, and we 
believe that our consumers are better protected as a result. We 
are encouraged that the subcommittee recognizes a critical 
necessity of data security and breach protections. We share 
this goal. This is our most sensitive information. Yours, mine, 
our children, our parents, our co-workers, our friends. We are 
all impacted, and we all deserve robust protections.
    We understand Federal standardization is the thrust of this 
bill. We do, however, have serious concerns that the standards 
set by this bill are too low, preempt too much, and hamstring 
the ability of my office, and that of the other Attorney 
General offices across the country, to continue our important 
work of protecting our consumers. It is our concern that this 
bill would--as drafted would set aside the robust consumer 
protections that already exist in Massachusetts and many other 
States, and replace them with weaker protections at a time when 
strong protections are imperative.
    My first point focuses on the bill's proposed data security 
standard. We agree strong data security standards are 
essential. This is how breaches are prevented. This is how the 
whole business of providing notice of breaches can be 
prevented. The bill would require ``reasonable security 
measures and practices.'' Our concern, however, is that it does 
not specify of delineate precisely what practices or measures 
are required. It may be true reasonableness is a useful 
standard in general, but it--standing alone, it is not 
particularly useful when trying to understand what actual 
practices and measures are required.
    We think that the only way reasonable can be determined 
under the bill as drafted will be through piecemeal protracted 
litigation, and the standard will differ from case to case and 
company to company. It will cause needless confusion, expense, 
and risk for companies, who are forced to guess what measures 
and practices will ultimately be considered by--considered 
reasonable.
    We think Massachusetts has the better approach. It has in 
place data security regulations that are tech neutral, process-
oriented, and, importantly, describe the basic minimum 
components of a reasonable data security program. Some of those 
components are--you have heard them from the FTC earlier today, 
conducting a risk assessment, developing, implementing, and 
maintaining a written information security program, 
establishing computer security controls, and many others. The 
Massachusetts regulations are consistent with those currently 
in place under Gramm-Leach-Bliley and HIPAA. We believe that 
they provide stronger protections to our consumers. Our view is 
that the bill as drafted would erase these strong protections, 
and, we believe, would ultimately be harmful to consumers.
    My second point concerns the scope of the bill's 
preemption. Put simply, we think it is too broad. It would 
restrict my office's ability to enforce our own consumer 
protection laws. It would prevent innovative States from 
legislating in this field in response to purely local concerns, 
for example, a breach involving a Massachusetts company and 
Massachusetts residents only. Under my interpretation, I think 
the bill might even go further, and it might possibly restrict 
States from enforcing, for example, criminal laws relating to 
the unauthorized access of electronic communications. It might 
possibly also preempt a State's ability to enforce the security 
obligations under HIPAA, an enforcement power given to the 
States under the High Tech Act. These laws, and others, relate 
to the issue of unauthorized access to data in electronic form, 
and under the current language of the bill, we believe our 
State's ability to enforce those laws would be preempted.
    Finally, the bill hamstrings my office's ability to protect 
Massachusetts consumers. Currently, under Mass law, we get 
notice of any breach involving one or more Massachusetts 
residents. From January 2008 through July 31, 2014 
Massachusetts has received notice of over 8,600 breaches, 
impacting over five million Massachusetts consumers. That is in 
Massachusetts alone. Under this bill, we would receive none of 
those notices. We believe this is a critical omission in the 
bill. It restricts our ability to enforce the requirements of 
the bill, and we believe ultimately it will make our job of 
protecting our consumers a lot more difficult.
    And with that, I thank the subcommittee for their efforts 
and for inviting me today. Thank you very much.
    [The prepared statement of Ms. Cable follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    
    
    Mr. Burgess. The Chair thanks the gentlelady.
    Mr. Duncan, welcome to the subcommittee. You are recognized 
5 minutes for the purpose of an opening statement.

                 STATEMENT OF MALLORY B. DUNCAN

    Mr. Duncan. Thank you, Dr. Burgess, Ranking Member 
Schakowsky, members of the committee for inviting us here 
today, and particularly Congressmen Blackburn and Welch for 
their efforts to produce this draft legislation. Thank you too 
for the courtesy and consideration you and your staffs have 
shown to us and our members over the past many months. The 
result of those discussions, and undoubtedly many more, is a 
working draft that is significantly better than introducing--
legislation introduced in prior Congresses. We look forward to 
continue working with you to help turn the draft into a 
legislative product that will provide increased security and 
protection for consumers, ameliorate burdens on business, and 
establish meaningful and reasonable standards for all.
    I would like to set out three or four principles that have 
guided our work. Number one, breaches affect everyone. Every 
entity that has a significant breach of sensitive data should 
have an obligation to make that fact publicly known. Public 
notice serves two goals. First, it provides consumers with 
information they might be able to use to better protect 
themselves from identity theft. Second, the fear of public 
notice strongly incentivizes companies to improve their 
security. Both goals are important. Enacting legislation that 
exempts some entities from public notice, or that perpetuates 
notice holes that would allow companies to hide breaches 
undermines both.
    Two, if one is a mid-sized regional company, or an e-
commerce startup struggling with the consequences of a breach, 
the existing morass of inconsistent laws are little more than 
traps for the unwary. We need Federal preemption that works.
    Three, if we are going to preempt the State laws, we owe it 
to the States, and to their citizens, not to adopt a weak law. 
We should seek legislation that reflects a strong consensus of 
the State laws and carefully strengthen them where doing so 
supports the other two principles.
    And four, if we are to specifically adopt data security 
standards, they should not be defined technical standards, and 
they must be comprehensible and actionable from the perspective 
of the companies against whom they will apply.
    With those principles in mind, I would like to address a 
few areas of the draft. One, there is not good reason why a 
breach law should apply a high standard for reporting against 
some companies, such as retailers, restaurants, dry cleaners, 
and other small businesses, while requiring little or no notice 
from some of the biggest firms in America holding the same 
sensitive data, be they cloud services like Apple, or payment 
processors like Hartline when they suffer a breach. Not only 
does the draft excuse them from general public notice, 
undermining security incentives, the draft allows big 
businesses to shift liability for their breaches onto smaller 
business. This is worse than what exists under the State laws. 
It must be fixed.
    Two, preemption. In general, the preemption language in the 
draft is much better than in previous Congresses' bills. If the 
notice holes are filled, it could replace the conflicting 
welter of State requirements with a single strong law. The one 
area for concern is the clause that specifically excludes some 
laws from preemption. Federal jurisprudence suggests that when 
that is done, the entire preemption clause could be placed in 
jeopardy.
    Three, there are portions of the draft that are 
inconsistent with the considered strong consensus of State 
laws. For example, we know of no State law that expressly 
exempts communication service providers, and that would allow 
them, even when they know they have a serious breach, to get 
away with providing no notice to anyone at all. That is a 
notice hold you could drive a truck through.
    Finally, as to data security, when the FTC applies 
generalized standards to businesses, such as unfairness or 
deception, as--or, as should be proposed here, reasonable 
security standards, they are enforced under Section 5 of the 
FTC Act, which calls for a cease and desist order before 
penalties can be imposed. The law allows businesses to 
understand what is intended by the vague standards before they 
are made subject to massive penalties.
    While going directly to damages might be appropriate for an 
objective on/off requirement, like giving notice within 30 
days, it does not make sense when the legal requirement is 
simply to do something reasonable, or not to be unfair. That is 
the way the Commission has worked very effectively for over 100 
years. Congress should not leave companies subject to fines for 
practices they could not know in advance, or unreasonable in 
the eyes of the FTC. That must be remedied.
    Thank you for the opportunity to speak today. We look 
forward to working with you to craft a strong, effective, and 
fair law.
    [The prepared statement of Mr. Duncan follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   
    
    Mr. Burgess. The Chair thanks the gentleman.
    The Chair now recognizes Ms. Moy. Five minutes for your 
opening statement, please.

                     STATEMENT OF LAURA MOY

    Ms. Moy. Thank you. Good morning, Dr. Burgess, Ranking 
Member Schakowsky, distinguished members of the subcommittee. 
Thank you for your shared commitment to addressing data 
security and data breaches, and for the opportunity to testify 
on this important issue.
    Consumers today share tremendous amounts of information 
about themselves. Consumers benefit from sharing information, 
but they can also be harmed if that information is compromised. 
For that reason, 47 States, and the District of Columbia, all 
currently have data breach laws on the books, and several 
States have specific data security laws. Many States also use 
general consumer protection provisions to enforce privacy and 
security.
    To preserve strong State standards, and the ability to 
protect protections to the needs of their own residents, a 
Federal law should set a floor for disparate State laws, and 
not a ceiling. But, in the even that Congress seriously 
considers broad preemption, the new Federal standard should 
strengthen, or at least preserve, import protections that 
consumers currently enjoy. This bill, however, would weaken 
consumer protections in a number of key ways. These concerns 
must be addressed, and if they are not addressed, it would be 
better for privacy to pass no bill than to pass this bill as 
currently drafted. I will highlight five particular concerns.
    First, the bill's definition of personal information is too 
narrow. The bill threatens to weaken existing protections by 
eliminating State laws covering information that falls outside 
of its narrow terms. For example, health information, as others 
have mentioned, falls outside this bill's definition of 
personal information. As a result, passing this bill would mean 
eliminating breach notification coverage of that information in 
Florida, Texas, and seven other States.
    Second, this bill would condition breach notification on a 
narrow financial harm trigger. Data breaches may lead to a 
number of serious harms beyond merely those that are financial 
in nature, one reason why seven States and the District of 
Columbia have no harm trigger at all, and why triggers in 
another 26 States are not specifically financial in nature.
    Third, the bill's general reasonableness security standard 
would replace the more specific security standard set forth in 
many State laws, and the FCC's rules implementing the 
Communications Act. Some States have specific data security 
standards in place, and the FCC's CPNI rules require carriers 
to train personnel on CPNI, have an express disciplinary 
process in place for abuses, and certify on an annual basis 
that they are in compliance with the rules. This bill threatens 
to eliminate these carefully designed security requirements, 
replacing them with a general reasonableness standard.
    Fourth, this bill would supersede important provisions of 
the Communications Act that protect telecommunications, cable, 
and satellite customers. Consumers rely on the Communications 
Act, and the FCC's implementation of it, to protect the very 
sensitive information that they cannot avoid sharing with the 
gatekeepers of communications networks. But this bill threatens 
to replace those protections with weaker standards. In 
addition, this bill would eliminate protections for the viewing 
histories of cable and satellite subscribers that fall outside 
the bill's definition of personal information. The proposed 
reduction of FCC authority could not come at a worse time for 
consumers, right as the FCC is poised to apply its Title 2 
authority over data security and breach notification to 
broadband.
    The bill strives to eliminate FCC authority only insofar as 
it relates to information security or breach notification, 
while preserving the FCC's authority to set privacy controls. 
But privacy rules that give consumers the right to control 
their information are of greatly diminished value when there 
are no security standards to protect against unauthorized 
access.
    Fifth, the bill could eliminate a wide range of existing 
consumer protections that may be used to enforce both privacy 
and data security. The bill is designed to preempt State law 
and supersede the Communications Act only with respect to 
information security and breach notification, but in practice 
it would be exceedingly difficult to draw the line between 
information security and breach notification on the one hand, 
and privacy and general consumer protection on the other.
    We are not unequivocally opposed to the idea of Federal 
data security and breach notification legislation, but any such 
legislation must strike a careful balance between preempting 
existing laws and providing consumers with new protections. The 
draft Data Security and Breach Notification Act of 2015 falls 
short of that balance, but we at the Open Technology Institute 
do appreciate your commitment to addressing these issues, and 
we hope to work with you to strengthen the bill and strike a 
better balance as it moves forward.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Moy follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    Mr. Burgess. Thank you for your testimony.
    Ms. Weinman, welcome to the subcommittee. You are now 
recognized for 5 minutes for the purpose of an opening 
statement.

                   STATEMENT OF YAEL WEINMAN

    Ms. Weinman. Thank you. Chairman Burgess, Ranking Member 
Schakowsky, and members of the subcommittee, thank you for the 
opportunity to testify today. My name is Yael Weinman, and I am 
the Vice President for Global Privacy Policy and the General 
Counsel at the Information Technology Industry Council, known 
as ITI. Prior to joining ITI in 2013, I spent more than 10 
years as an attorney at the Federal Trade Commission, most 
recently as an attorney advisor to Commissioner Julie Brill.
    The 60 technology companies that ITI represents are leaders 
and innovators in the information and communications technology 
sector. These are companies that are committed to the security 
of their customers' information. The reality remains, however, 
that while organizations race to keep up with hackers, these 
criminals attempt to stay one step ahead. And when a network is 
compromised, and personal information has been breached, 
individuals may be at risk of identity theft or financial 
fraud.
    Consumers can take steps to protect themselves from 
identity theft or other financial fraud following a data 
breach. Federal breach notification legislation would put 
consumers in the best possible position to do so. In the 
written testimony I provided to you in advance of this hearing, 
I included the set of nine principles that ITI recommends be 
included in Federal breach notification legislation. The draft 
legislation that is the subject of this hearing reflects a 
number of these important principles. I highlight three.
    First, the legislation preempts the existing patchwork in 
the United States of 51 different regimes. That is 47 States 
and four territories. Such preemption is critical in order to 
streamline notices and avoid consumer confusion. Second, the 
legislation's timeline for notification recognizes that 
notification can only take place once an organization 
determines the scope of the data breach, and has remedied 
vulnerabilities. The timeline included in the draft legislation 
also permits the necessary flexibility to enable companies to 
delay notification at the request of law enforcement. Third, 
the legislation does not require notification if data is 
unusable, recognizing that power security tools have been 
developed that avoid risks if data has been compromised.
    ITI appreciates how these three important elements are 
incorporated into the draft legislation. Greater clarity and 
discussion is needed, however, in a number of areas, and I 
highlight three today.
    First, the description of the level of risk, and the 
potential ensuing harm that would trigger the notification, 
appears to be broad. The threshold of reasonable risk, combined 
with the phrase economic loss or economic harm could lead to 
over-notification. It is unclear how economic loss or economic 
harm is being distinguished from the phrase financial fraud 
that also appears in the text. Year after year, identity theft 
tops the list of consumer complaints reported to the FTC, and 
identity theft or financial fraud are the appropriate triggers 
for providing consumer notice. And, upon notification, 
consumers can then take the necessary steps to protect 
themselves.
    Second, with regard to the timing of notification, as 
currently written, the timeline for a covered entity to notify 
consumers if a third party suffered a data breach is unclear. 
The third party needs to remedy vulnerabilities and restore its 
systems before the covered entity provides notice. The draft 
should be clarified that the third party will be given the 
opportunity to restore its system prior to the point in time 
that the covered entity is required to provide notice to 
consumers.
    Third, the maximum penalty amounts set in the draft 
legislation are high, $2.5 million maximum for each violation 
of the data security section, and a $2.5 million maximum for 
notice related violations arising from a single incident. These 
amounts appear punitive, and do not seem to reflect that an 
organization that suffered a data breach, in most cases, is the 
victim itself of criminal hackers.
    As ITI and its member companies continue to study the 
draft, and as we gather feedback, we look forward to sharing 
that with members of the committee. Thank you, and I am happy 
to answer any questions.
    [The prepared statement of Ms. Weinman follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
  
    
    Mr. Burgess. The Chair thanks the gentlelady, thanks all 
the witnesses for your forthright testimony today. We will move 
into the question and answer portion of this panel. Recognize 
myself for 5 minutes for questions.
    And, Mr. Leibowitz, if I could, let me start with you. You 
are familiar with the draft legislation before us. Do you think 
consumers would be more or less protected with respect to 
information held by telecom providers under this draft?
    Mr. Leibowitz. I think--look, my view is that consumers--if 
this bill were to pass tomorrow, be signed into law, consumers 
would be in a better position, and let me just tell you why I 
think that.
    First of all, the, you know, the FTC, as the witnesses--
both witnesses acknowledged in the previous panel, has been a 
leader, America's top consumer protection cop, including in the 
data security area, with more than 50 cases, and hundreds of 
investigations. There is an emerging consensus, and I think 
this is critically important, that the most appropriate way to 
protect personal information, and this is at the core of your 
bill, is with strong, but flexible, data security standards. It 
is not with prescriptive rules.
    And there is also an ever-changing patchwork of State 
legislation. Now, I have seen legislation, when I was at the 
FTC, that sometimes took State AGs entirely out of the business 
of enforcing the law. You do not do that, and I think that is 
critically important, because you want State AGs to be a top 
cop here. And nobody wants to see any gaps in the legislation. 
I do not read this legislation as having any gaps, but we 
certainly want to work with you, to do some tweaking, if that 
is necessary.
    Mr. Burgess. And I thank you for that response. So just in 
general, with your experience as Chairman of the Federal Trade 
Commission, you would interpret this draft legislation as 
strengthening consumer protections across the board?
    Mr. Leibowitz. I do. And let me just come back to one 
question, because it came back in the--came up in the first 
panel, about the issue dual jurisdiction. And I understand that 
sometimes the FTC and the FCC work together, and sometimes they 
can work together very collaboratively.
    But just as I believe that the FTC should be the sole 
Federal enforcer of data security, because I think it does a 
really good job, and it has expertise, and it is concentrated 
on that for decades, really going back to the Fair Credit 
Reporting Act passed in the 1970s, you know, I also wouldn't 
want to see, for example, the FCC go into the business of 
spectrum auctions, right? That is something that the FCC does 
really well. It is a terrific agency at that, and, you know, I 
think you should just let each agency play to its strengths and 
to its expertise. Shouldn't be any gaps in the legislation, I 
don't believe there are, but that is the way, I think, to sort 
of improve the protections that companies have to have, and 
ultimately improve the lives of consumers.
    Mr. Burgess. Thank you, sir. Ms. Weinman, let me just ask 
you, you are a former FTC attorney advisor. Tell me what you 
see is the difference between privacy and security.
    Ms. Weinman. Thank you for the question. Privacy relates to 
how an organization uses data, with whom it chooses to disclose 
that data. Security relates to the underlying security of that 
information, and the access to which would be unauthorized. 
That, to me, is the key word in distinguishing between privacy 
and data security.
    Mr. Burgess. And is that difference important for the 
subcommittee to consider in its drafting of the bill?
    Ms. Weinman. Absolutely. I think that, in some ways, 
privacy and data security are often conflated. But I think, 
with respect to this bill, you do a good job of separating out 
the two, and focusing on data security. So I think it is 
something to keep in mind, because there is often conflation, 
but I think it is important to keep those two concepts 
distinguished, and I think this bill does a good job of that.
    Mr. Burgess. Mr. Leibowitz, let me come back to you just on 
that issue of privacy and data security requirements. Do you 
feel the bill is doing an adequate job in that regard?
    Mr. Leibowitz. I do, Mr. Chairman, and, you know, you can 
look at them as sort of Venn diagrams with a slight overlap. 
You can look at them as--along the lines of a continuum. But I 
think you can separate them. I think you do a very good cut in 
your discussion draft. And you concentrate on what Mr. Welch 
said, and Mr. Cardenas, and others had said, is the most--and 
Ms. Brooks said is the most important information here is the 
personally identifiable information. It is what the hackers 
really care about, right? And that is what you need to have the 
highest level of protection for, data security, and you need to 
give notification to consumers.
    Mr. Burgess. Very good. My time has expired. I will yield 
back. I just want to--time for questions is limited, and I do 
have some questions that I am going to submit, and ask for a 
written response, Ms. Cable, in particular for you, and some of 
the issues that happened around the High Tech Act of 
Massachusetts, but I will do that in writing.
    And I will recognize Ms. Schakowsky. Five minutes for 
questions, please.
    Ms. Schakowsky. Before--because he has a bill on the floor, 
I am going to yield right now out of order, Mr. Kennedy, for 
questions.
    Mr. Kennedy. I want to thank the Ranking Member for the 
generosity, and, Mr. Chairman, thank you for calling the 
hearing. To all of our witnesses today, thank you for spending 
the time, thank you for your testimony. I had the pleasure of 
introducing Ms. Cable this morning from Massachusetts, so thank 
for being here, ma'am. And I wanted to get your thoughts, as an 
enforcement lawyer from Massachusetts--we have heard a number 
of criticisms of the draft bill today, but I would much rather 
focus on how we can make this bill stronger, or the data 
security and breach notification aspects a bit better.
    So, in your opinion, ma'am, what are some of the most 
critical data security standards in Massachusetts law that you 
believe are not represented within the framework of the 
proposed bill?
    Ms. Cable. Sure, of course, and I will echo what was 
previously said by the FTC, and I alluded to in my testimony. 
You know, this is a framework that includes, at the first step, 
an evaluation and assessment. What personal information does 
the company have, where is it, how do they use it? What are the 
reasonably foreseeable risks to that information, both internal 
and external? It is the process of taking stick and evaluating 
what the risks are that is not reflected in this current draft 
of the bill that I believe is critically necessary. And you can 
see that reflected in Gramm-Leach-Bliley standards, and I 
believe the HIPAA security rule as well.
    Stemming from that process are, then, the safeguards that 
need to be put in place. Again, Massachusetts law leaves open, 
and gives companies some flexibility, what are the specific 
safeguards. They include things like restricting employee 
access to information on an--on a business need basis only. It 
includes simple things you might not even think about, changing 
passwords when someone leaves the company, for example.
    There is--computer security systems need to be paid careful 
attention to because of the volume of data they can store, and 
the many points of access to that data. So perimeter security, 
such as firewalls, anti-virus protection, software patches. The 
Massachusetts data security regulations are technology neutral. 
They leave open, and they contemplate changes in technology and 
improvement in procedures, but they establish a minimum concept 
of protecting your computer's security network. There are many 
more, but, you know, I think it is a process-oriented--it 
requires a company to take an introspective look at itself and 
its information, and it is an iterative, evolving process, and 
I think that is what is important about it.
    Mr. Kennedy. So, given that, Ms. Cable, do you think that 
should be--or that framework should be a national benchmark, or 
what additional requirements do you think you could suggest to 
further enhance the protection of consumers' data?
    Ms. Cable. Well, I think it was suggested in the first 
panel, and it is the concept of FTC rulemaking authority. And I 
think that is something----
    Mr. Kennedy. Um-hum.
    Ms. Cable [continuing]. That our office would support a 
closer look at.
    Mr. Kennedy. And maybe that is the answer to this next 
question, but how can we ensure that the data security standard 
is responsive to rapidly evolving technologies and increasingly 
sophisticated cyberattacks?
    Ms. Cable. I think, you know, giving the FTC the authority 
and flexibility to, you know, enact regulations that are 
sufficiently flexible and responsive is one way to do it. And, 
you know, I haven't heard anyone espouse the opposite of this 
proposition, which is these need to be neutral, they need to be 
flexible. There is a way to do that. There are established 
frameworks in Federal law that do that.
    Mr. Kennedy. So if I--just got about a minute left, and a 
discussion that has come up over this legislation a couple of 
times now is over preemption. And so, in your mind, and as a 
practitioner, can you give us some suggestions on--does it have 
to be all or nothing, or are there some ways we can preempt 
some things, like the content of the notice, for example, but 
not others, to allow for that flexibility?
    Ms. Cable. Absolutely, yes. Thank you for the question. I 
think preemption absolutely does not need to be an all or 
nothing approach. We have heard the patchwork 47 or 51 
different data notice regimes, approximately 12 data security 
standards. What I hear more, regarding a compliance burden, is 
with responding to a breach, versus how do you prevent a breach 
in the first instance.
    I think there is some work that might be done in limiting 
the scope of the preemption to address the specific burdens 
that are being articulated, and enable a rapid response to a 
breach. But I think the States are innovative in the field of 
data security, I think they are nimble. You know, our view is 
the preemption is just simply too broad.
    Mr. Kennedy. I have only got about 10 seconds left. I might 
submit in writing a question about the--any concerns over the 
enforcement mechanisms, or the limits on the civil penalties 
for your consideration.
    Ms. Cable. Of course.
    Mr. Kennedy. Thank you for coming here.
    Ms. Cable. Happy to answer.
    Mr. Leibowitz. And if I could just add point to respond to 
your question? I mean, these are----
    Mr. Kennedy. Yes.
    Mr. Leibowitz. It is on my time, or----
    Mr. Kennedy. It is not.
    Mr. Leibowitz [continuing]. On your time?
    Mr. Kennedy. It is up to the chairman.
    Mr. Leibowitz. If the chairman----
    Mr. Burgess. Gentleman may respond.
    Mr. Leibowitz [continuing]. Unanimous consent? Thank you. 
Again, you raise very good questions about how to think through 
the next iteration----
    Mr. Kennedy. Um-hum.
    Mr. Leibowitz [continuing]. And, obviously, we want to work 
with you to----
    Mr. Kennedy. Um-hum.
    Mr. Leibowitz [continuing]. Do that.
    Mr. Kennedy. OK. Thank you. I appreciate it.
    Mr. Burgess. Chair thanks the gentleman, gentleman yields 
back. Chair recognize the gentlelady from Tennessee, Ms. 
Blackburn. Five minutes for questions, please.
    Mrs. Blackburn. Thank you all, and I appreciate the 
conversation, and--that you would be here and weigh in on the 
discussion draft. Mr. Leibowitz, I have to say, it looks normal 
and natural to see you at that witness table, and we are happy 
to have you back.
    Ms. Weinman, I want to come to you first. We haven't talked 
a lot about the third party notice obligations, so I would like 
to have you walk through what you see as the strengths and 
weaknesses of the third party notice obligations.
    Ms. Weinman. Thank you for the question. I will begin by 
setting the stage with some defined terms. So the covered 
entity is generally the entity that has the relationship with 
the customer, or the consumer, use whichever word you are more 
comfortable with. And then the third party, or another term 
used in here would be a service provider, is the one that might 
perform services on behalf of that covered entity, but would 
also have personal information in their possession as a result 
of their B to B relationship with the covered entity, business 
to business.
    So the gap that I pointed out in my oral statement is that 
it is unclear when the covered entity would be required to 
provide notice to its customers when the third party suffered a 
breach. It is very clear when the covered entity would have to 
provide notice when it itself had been breached, but when the 
third party had been breached, it is unclear whether the 
timeline begins when that third party has had the opportunity 
to determine the scope of its breach, and had taken steps to 
remedying vulnerabilities, and restored its systems.
    Mrs. Blackburn. OK. Let me ask you something else. You 
mentioned the amount of compliance time, with businesses having 
to comply with all the different State laws. So is there any 
way that you can quantify what this would save to businesses by 
having preemption in place, and having a national standard? 
Have you thought through it in that regard, as--the cost 
savings to business?
    Ms. Weinman. I don't have a quantifiable number, in terms 
of compliance costs. That is not something that I have put 
together. I can point out, though, in terms of--the compliance 
costs would be considerable, considering the legal time. The 
redirection of resources that could be devoted to other 
critical areas once a data breach occurs is also a question of 
opportunity cost. If you are spending a lot of time figuring 
out your notice regime with 51 different frameworks, that is 
taking time and money away from other areas that you can be 
focusing on----
    Mrs. Blackburn. OK.
    Ms. Weinman [continuing]. Following a data breach.
    Mrs. Blackburn. Mr. Duncan, I saw you shaking your head. 
Let me come to you on that, because you mentioned in your 
testimony that you all have for years called on Congress to do 
something on breach notification. You also talk about modeling 
a Federal bill on strong consensus of existing State laws, and, 
in the context of third party notification, all of the existing 
State laws require notice from a third part to a covered entity 
after a breach.
    So I want you to talk to me about two things. I want you to 
reconcile your support for a national standard based on the 
State laws with your issues regarding the structure of the 
State laws for the third party. And then also I want you to 
talk a little bit about cost, and the preemption, and what it 
would do to--what it would save consumers and businesses in the 
process.
    Mr. Duncan. Thank you, Congressman Blackburn. There are 
three very good questions. In terms of the States, virtually 
all of the States do have an arrangement by which third parties 
would report directly to the entity for whom they were 
providing, say, a service, and that would be the general rule. 
What has become increasingly clear to a number of State 
Attorneys General is that trying to provide notice like that in 
every situation actually will not provide effective notice.
    There is an example, for example, in our testimony that 
talks about the Hartline breach, which was a huge breach. 80 
million data points, I believe, realized. And in that case, 
Hartline did the right thing. It didn't follow the State laws. 
In fact, it went beyond them, and provided the notice itself 
directly. Had they done otherwise, because Hartline was a 
payment processor for hundreds of retailers, it would have 
had--told each of them, and each of them would have had to tell 
all their customers about Hartline's breach, so consumers would 
have received hundreds of notices for what was actually one 
breach.
    So there is becoming a realization among the State AGs that 
we are--really should be focusing on effective notice, rather 
than this strictured--structured notice that is contained in 
some of the State laws. So it is an evolution of that. This 
presents a double problem when we go to the subset that Ms. 
Weinman just talked about, which was service providers, because 
in this case, under the draft language, in some circumstances, 
they would provide no notice at all, and that certainly--it 
shouldn't be a situation that someone who knows they have a 
notice--knows they have a breach can find themselves in a 
situation in which they say nothing to anyone, not even to law 
enforcement.
    And finally, as to cost, this is a very significant 
consideration. You must consider that this law is going to 
apply not just to the largest companies in America. It is going 
to apply to the first person who has 15 dry cleaner front--
shops. How much will he or she have to stay up at night, 
wondering about whether or not they have met an amorphous data 
security standard to--going forward? And that imposes 
tremendous costs on the operation of our businesses.
    Mrs. Blackburn. Mr. Chairman, my time has expired, and I 
will yield back, but I would ask Mr. Leibowitz, I can see that 
he was trying to respond to that, just to submit in writing his 
response, or someone later can call on him for his response to 
that question.
    Mr. Burgess. Chair thanks the gentlelady. Gentlelady yields 
back. Recognize Ms. Schakowsky. Five minutes for questions, 
please.
    Ms. Schakowsky. Thank you, Mr. Chairman. So I haven't heard 
anyone, except for Mr. Leibowitz, say that if the bill were to 
pass as is that consumers would be better protected. I didn't 
hear the first panel or the second panel--it seemed to me that 
lots of people--everyone had suggestions of how the bill could 
be made better. If I am wrong, would you tell me that? OK. So 
I--and Mr. Leibowitz also said he is happy to work with us, so 
I think we have some work to do.
    I wanted to ask a question about personal information that 
has come up several times. And--so when--let me ask Ms. Cable. 
In terms of personal information, what does your law include? 
And I want to ask Ms. Moy kind of a more global--other States 
as well. Go ahead, Ms. Cable.
    Ms. Cable. Thank you for the question. For Massachusetts, 
the definition of personal information is actually narrower 
than what is being considered in this bill. It includes name--
first name and last name, or first initial and last name, plus 
one of the following components, Social Security Number, 
driver's license number, or other Government-issued ID number, 
and that is State Government-issued ID number, or a financial 
account number with or without the security code required to 
access the account.
    Ms. Schakowsky. So many of us, I think, think that the 
requirement in the bill is too narrow, that it is just 
financial harm. And I would like to get Ms. Moy, if you could 
answer, what kind of information do you think is missing now 
that we are taking this important step of looking toward 
protecting consumers. What do you think ought to be there?
    Ms. Moy. Thank you. Thanks so much for this important 
question. So, as I mentioned in my testimony, there are a 
number of pieces of information that are covered by other laws. 
In particular, health information is covered by a lot of 
States. But I think, you know, we could go back and forth about 
particular pieces of information that should or should not be 
included in the definition of personal information here, but 
the big picture here is really--the bottom line is that there 
are broad categories of personal information that are currently 
covered under a number of State laws, and under the----
    Ms. Schakowsky. Well, let me ask you this, then, because I 
think it would be--help to outline for us. You noted that this 
bill does not protect the serious harms that a breach of 
information could cause, so I am wondering if you could draw a 
picture for us of what some of those serious harms could be.
    Ms. Moy. Sure. So, for example, you could imagine that if 
your email address and password were compromised. So that might 
not be an account identifier and a password that is necessarily 
financial in nature, and would fall within the scope of this 
bill, but if my personal emails were compromised, I would 
certainly experience some harm. I am sure I would experience 
not only emotional harm, but perhaps harm to relationships, 
perhaps harm to reputation. And, you know, and I think that a 
common sense question here is just, if my email address and 
account password were compromised, would I want to be notified? 
And--absolutely. I think that is just some common sense there.
    Ms. Schakowsky. Let me ask you this. Let us say a woman is 
a victim of domestic violence----
    Ms. Moy. Um-hum.
    Ms. Schakowsky [continuing]. But geolocation is not 
protected. Could she be at risk in some way?
    Ms. Moy. Right, thank you. So I think one of the things 
that I did highlight in my written testimony is that because 
both of--the definition of personal information, and the harm 
trigger that is premised on financial harm, there are 
categories of information, like geolocation information, or 
like information about call records, that, if compromised, 
could result in physical harm. So a domestic violence victim, 
for example, might be concerned not only about her geolocation 
information, but perhaps about her call records. If she called 
a hotline for victim assistance, or if she called a lawyer, 
those are pieces of information that she absolutely would not 
want to be compromised.
    Ms. Schakowsky. In terms of the role of the FTC having some 
flexibility in defining what personal information would be, 
what position have you taken?
    Ms. Moy. Right. So I think it is--I think that it is 
critical that we provide for flexibility in the definition of 
personal information in one way or another. Whether it is 
through agency rulemaking, or through State law, it is really 
important that we be able to adapt a standard to changing 
technology, and changing threats.
    So I mentioned in my testimony the growing trend of States 
including medical information in their definition of personal 
information. In fact, two States just this year have passed 
bills that will include that information in their breach 
notification later this year, and that is not an arbitrary 
change. The reason that that is changing is because there is a 
growing threat of medical identity theft, and it is really 
important to build in flexibility to account for those changes.
    Mr. Leibowitz. And if I could just follow up on Ms. Moy's 
points very quickly, in support, I think, of most of them. You 
know, I think geolocation--and your point. I think geolocation 
is critically important. When we were at the FTC, we expanded 
geolocation under COPPA to be a condition present. It is 
something you may want to take a look at.
    It is also important to note that the Massachusetts law, 
which is one of the most progressive laws of the State, has a 
narrower definition of data security. This is a well-
intentioned piece of legislation, and reasonably we can 
disagree about where to draw the line, but it is broader than 
38 States, that don't have it.
    And then the other two very quick points I want to make, on 
the ISP point that you mentioned before, Mr. Duncan, you know, 
if a service--aware of a data security breach, they must notify 
the company of the breach, and they have an obligation to 
reasonably identify any company, to try to reasonably identify.
    And then, finally, on rulemaking, obviously, I came from 
the FTC, I came and testified in support of this legislation, 
or signed testimony. I would just say, and maybe this is 
overall for the legislation, this is my belief in it, it always 
was when I was there, is you just don't want to let the perfect 
be the enemy of the good here. You want to make sure you move 
forward for consumers. Reasonable people can disagree about 
exactly where that is, but getting some things sometimes is 
better than, you know, not getting everything.
    Mr. Burgess. The Chair thanks the gentleman for his 
observations. Gentlelady's time has expired. Chair recognizes 
the gentlelady from Indiana, Ms. Brooks. Five minutes for 
questions, please.
    Mrs. Brooks. Thank you, Mr. Chairman, and I want to build 
on what the gentleman from Massachusetts was saying, is that we 
have to get this right, and--perfect is the enemy of good here. 
And I have heard--I am not familiar with Massachusetts statute, 
and, obviously, with there being so many statutes, the problem 
is that we in Congress, while we have been talking about it for 
years and years and years, and I applaud all the work that has 
been done in Congress in the past, we have got to move 
something forward here, because terrorist organizations, 
nation-state organizations, they are going to always continue 
to come up with more ways and new ways to hack and get this 
information.
    And it is becoming, I think, one of our constituents' 
greatest security concerns, truly, and we have got to get this 
right. And I don't believe that having 51 different standards 
is good. We have got to get, you know, we have got to move on 
this and improve. And I think--my previous question to the 
director of the FTC, the reasonable security practice, and if 
we were to adopt, for instance, Massachusetts, how you have set 
out, and what I would love to see is the State Attorneys 
General work with the committee and the members who have put 
forth this legislation, and let us get this right.
    And so, for instance, if the reasonable security practices 
that you delineate in Massachusetts, those are flexible, but 
yet they set out the process, would that satisfy you on the 
reasonable security piece, Ms. Cable?
    Ms. Cable. Yes, thank you for the question, and I agree and 
appreciate this is a critical issue, and there needs to be 
action, and I really applaud the subcommittee for taking up 
this issue, because it is complicated and it is difficult.
    I think, you know, I happen to very much like the 
Massachusetts data security regulations, but, of course, I have 
to say that.
    Mrs. Brooks. Sure.
    Ms. Cable. I think they are, however, a good framework, a 
recognized framework, and something that commercial entities 
are used to seeing. And I think the issue with preemption, what 
makes it concerning to us, is the standard of data security 
that is being set. We don't think it is sufficiently defined, 
and therefore we think, as a result, it may not be sufficiently 
robust. And so, at least from Massachusetts perspective, this 
is not better off for our consumers if reasonable security 
measures and practices result in a downward harmonization 
across the Nation of a lower standard of security.
    And I might add, lower security, logically, I think, will 
result in an increased incidence of breaches, an increase in 
notice obligation, and an increase of all of the problems we 
are discussing today. I really think the data security standard 
is a critical element. I think the reasonableness standard is 
maybe a good lode star guidepost, but this--the measures and 
practices need to be more defined.
    Mrs. Brooks. Mr. Leibowitz, would you like to comment on 
those remarks?
    Mr. Leibowitz. Well, I mean, at 50,000 feet I agree that 
you don't want to ratchet down, you want to ratchet up the 
level of data security. I think the fact that 38 States don't 
have any data security obligations at all is very telling. And, 
again, as Ms. Cable acknowledged, you know, one of the most 
progressive pieces of legislation that States have written is 
the Massachusetts law. On the data security side, it has a 
narrower definition.
    So I think, again, and going back to Mr. Welch's point and 
Mr. Cardenas' point, it is like what do people care about 
when--what hackers care about, they care about the personal 
identification and the financial information. And what do 
consumers care about, and at the FTC--and the FTC continues to 
do great work here, you know, they care about their Social 
Security Number. They care about their financial information 
being taken. They care about, you know, economic harm more than 
anything else. And that is what drives this problem more than 
anything else. It is not ideological groups. It is, you know, 
people engaged in fraud and criminal activities that the FTC 
and the State AGs have been prosecuting, will continue to be 
able to do in the bill.
    Mrs. Brooks. Thank you. And one completely different issue, 
Ms. Weinman, you talked about the providers must restore their 
system, that entities should restore their system before 
notification. Can you explain why that would be necessary when 
it does seem that speed in getting out notifications--although 
we know that often those who are breaching and hacking can sit 
on this information for years, they don't often use it 
immediately. But why do you propose that an entity needs to 
have the time to restore its system, as you have said, before 
notification?
    Ms. Weinman. As currently drafted, the bill does allow that 
restoration of system for a covered entity, and I think it is 
critical that that be the case because if an entity provides 
notification, it is essentially making public that its system 
has been compromised, and it could render itself further 
vulnerable to additional attacks by those same hackers, or 
other hackers. So I thank, and applaud, the subcommittee for 
recognizing that point in time when notification should begin 
should be at a time when the system has been restored.
    Mrs. Brooks. Thank you. I yield back.
    Mr. Burgess. The Chair thanks the gentlelady, and Chair 
recognizes the gentleman from Vermont, Mr. Welch for 5 minutes 
for questions.
    Mr. Welch. Thank you very much, sir. I want to take up a 
bit from where my colleague, Ms. Brooks, was with the Attorney 
General's Office from Massachusetts. First of all, thank you 
for your testimony. Second, thanks for the good work that 
Massachusetts does. Third, we are pretty proud of our Attorney 
General and consumer protection in Vermont. They have a 
standard and an--they have a solid standard, and an aggressive 
consumer protection division, like you do, and they have made 
some of the same arguments to me about this bill that you just 
made, so message received.
    But I just wanted to go through a few things. Number one, 
the bill does use this term reasonableness, and I think there 
has been a debate, even--not--on all sides, including among 
consumer activists, whether something that is flexible has the 
potential to meet the challenges as they emerge, as opposed 
to--what I heard in your testimony is a more detailed set of 
guidelines that is--according to your testimony is working for 
you.
    But I guess I am just looking for some acknowledgment that 
there is a legitimate argument to approach it in a prescriptive 
way, or in a general way that gives a little more flexibility 
to the enforcer, in this case Massachusetts. Would you agree 
with that?
    Ms. Cable. Yes, thank you for your question, and I would 
reiterate I work closely with colleagues from the Vermont 
Attorney General's Office. It is a fantastic office, and I 
enjoy working with them. I think the issue of data security 
standards, and whether they are flexible----
    Mr. Welch. Right.
    Ms. Cable [continuing]. Flexible or prescriptive, I think 
you can have standards that articulate components of what a 
data security system framework should look like, but an awful 
lot of flexibility with how you meet those standards, and I----
    Mr. Welch. Well, right, and that is where it is genuinely 
difficult. Because, you know, if Ms. Brooks was able to get all 
the Attorney Generals to come up with what was the best 
approach, that might be persuasive to all of us, because there 
are Republican and Democratic Attorney Generals out there.
    A second thing that I wanted to talk about is this question 
of an obligation on the part of the companies. There is an 
enormous incentive for thieves, criminals, to try to hack our 
information. They get our money. There is an enormous 
incentive--I am looking for all you--your reaction on this--for 
companies to have their computer systems be as safe as 
possible, because they are victims too in this case. I mean, 
look what happened at Target. People lose their jobs. It is 
brutal on the bottom line for these companies. So I see that as 
a practical reality that we can take advantage of. I mean, is 
that consistent with you, as an enforcer?
    Ms. Cable. I would absolutely agree, and I would note, you 
know, much of my effort is not spent trying to find gotcha 
moments and----
    Mr. Welch. Right.
    Ms. Cable [continuing]. Enforcing. We have received notice 
of over 8,600----
    Mr. Welch. Yes.
    Ms. Cable [continuing]. Breaches, and I think, we ran the 
numbers, we have had 13 actions.
    Mr. Welch. But you would be in agreement----
    Ms. Cable. I would, and I would----
    Mr. Welch. Yes.
    Ms. Cable. Most of my time is spent----
    Mr. Welch. I don't have much time, so let me get a----
    Ms. Cable. Of course. I apologize.
    Mr. Welch [continuing]. Few more. You have been very 
helpful. The other thing Mr. Duncan was talking about, 
effective notice, and this goes back, again, to kind of 
practicality. If I get these bank notices when I do this 
mortgage refinancing, it literally gives me a headache, and I 
get less information. All I need to know are three things, what 
is my rate--what is my interest rate, when is the payment due, 
and what is the penalty if I don't meet the time? That is all I 
need to know. And--so this effective notice issue, I think, is 
something that, on a practical level, all of us want to take 
into account.
    So let me go, Ms. Moy, to you. I want to, first of all, 
thank you and your organization for the great work you have 
done, and also for being available to try to answer my 
questions.
    Ms. Moy. Thank you.
    Mr. Welch. You had mentioned something that every single 
one of us would be really concerned about, if there was any way 
that we were passing legislation that was going to make a woman 
of domestic violence more vulnerable. All of us would be 
against that, OK? So I don't see in this legislation how that 
is happening, but if, in your view, it is, I would really 
welcome a chapter and verse specification as to what we would 
have to do to make sure that didn't happen. And I think we 
would all want to be on board on that. So could you help us 
with that----
    Ms. Moy. Thank you, I appreciate that question, and I have 
appreciated working with your office as well. So I think, you 
know, this question mostly gets to what standard is set for the 
harm trigger, right? I mean, because there are certain types of 
information, or certain situations where information may be 
compromised or accessed in an unauthorized manner, and you 
could look at that situation and say, this information really 
couldn't be used for financial harm, or we think it is unlikely 
that that is the--that was the motivation of the person who 
accessed that information.
    Mr. Welch. OK. My time is running up, so I----
    Ms. Moy. Yes.
    Mr. Welch [continuing]. Apologize for interrupting, but 
if----
    Ms. Moy. Um-hum.
    Mr. Welch [continuing]. You sent us a memo on that, and----
    Ms. Moy. Absolutely.
    Mr. Welch [continuing]. Attorney Cable, if you sent us some 
specifics, that would be helpful to the committee, because I 
know Ms. Schakowsky was very interested in a lot of the points 
you made, as well as all of us, I think.
    Ms. Moy. Absolutely.
    Mr. Welch. Thank you.
    Ms. Moy. Thank you.
    Mr. Welch. I yield back.
    Mr. Burgess. Chair thanks the gentleman. Chair recognizes 
the vice chair of the subcommittee, Mr. Lance. Five minutes for 
questions, please.
    Mr. Lance. Thank you very much, Mr. Chairman.
    Mr. Leibowitz, in your opinion, what benefit have class 
actions brought to consumers after a data breach?
    Mr. Leibowitz. Well, let me start by saying, I think class 
actions have an enormous value in a lot of areas. Civil rights 
areas, others as well. In this area, I don't think that class 
actions have much benefit, except for the lawyers who bring 
them. And what they also do is they incentivize, or the create 
incentives, I think, for companies to emphasize legal 
protections, rather than actual reasonable data security.
    And I will just make sort of one other point, which goes 
back to the FTC, which is, if the FTC brings a case, and it 
gets compensation for consumers, all that compensation goes 
back to the consumers. They--$200 million to 400,000 people who 
were victims of mortgage service fraud by Countrywide, and that 
is one other benefit. But I also believe that, you know, class 
actions can be vitally important, as I am sure you do, in some 
areas.
    Mr. Lance. In other words, your point is that when the FTC 
does it, the--FTC personnel are in the public sector, and the 
full benefit goes to those----
    Mr. Leibowitz. The entire----
    Mr. Lance [continuing]. Who have been harmed?
    Mr. Leibowitz. Yes.
    Mr. Lance. It is an indication why we should be supportive 
of our Federal workforce----
    Mr. Leibowitz. And----
    Mr. Lance [continuing]. And for colleagues who serve in 
Federal service. Would others like to comment on that? Attorney 
General Cable?
    Ms. Cable. If I may?
    Mr. Lance. Certainly.
    Ms. Cable. Thank you, Congressman.
    Mr. Lance. Certainly.
    Ms. Cable. I would just note--consumer restitution is a 
critical tool that we have in our toolbox under our Consumer 
Protection Act. We use it--we like to use it. If we can get the 
money, we distribute it. I noted under this version of this 
bill, it does not expressly allow us to seek consumer 
restitution, and it also denies the consumer a private right of 
action. We think that is a bit of an oversight in the event a 
consumer is actively harmed here. State AGs under this bill 
would not be able to seek consumer restitution, under one 
interpretation.
    Mr. Lance. Thank you, Attorney General. Mr. Leibowitz, do 
you wish to comment further or not? No? Thank you.
    Mr. Leibowitz. No, sir.
    Mr. Lance. Ms. Weinman, do you have a concern about State 
common law claims adding additional security or notification 
requirements for companies if a Federal law is enacted?
    Ms. Weinman. I think that this bill strikes a useful 
balance in pre-empting the current State data security 
requirements and the breach notification, so I think this bill 
strikes a good balance in that area.
    Mr. Lance. And you believe that because the country would 
move forward uniformly, and this would be something that would 
be on the books for the entire Nation?
    Ms. Weinman. Yes, and it would streamline the notification 
process across the board, across the 51 regimes for which I 
have, you know, a 19 page chart. So I think that would 
definitely be useful.
    Mr. Lance. Yes. Thank you. Mr. Chairman, I yield back the 
balance of my time.
    Mr. Burgess. Chair thanks the gentleman. Chair recognizes 
the gentleman from New Jersey, Mr. Pallone. Five minutes for 
questions, please.
    Mr. Pallone. Thank you, and I have been to, like, three 
different meetings since I was last here, so hopefully I will 
be understandable here. Under current law the FTC does not have 
enforcement authority over common carriers, including 
telecommunications, cable, and satellite services, and the 
discussion draft lifts the common carrier exception to allow 
the FTC to bring enforcement actions for violations of the 
provisions of this bill.
    And I wanted to ask each member of the panel, and I am just 
looking for a yes or no because I have a whole series of things 
here, if you could just say yes or no, assuming the draft did 
not include preemption of the Communications Act in Section 6C, 
do you support lifting the common carrier exceptions in the 
context of data security and breach notifications, yes or no? 
We will start to the left.
    Mr. Leibowitz. Yes.
    Mr. Pallone. Ms. Cable?
    Ms. Cable. I apologize, I think I am out of my expertise, 
so----
    Mr. Pallone. You have no response?
    Ms. Cable. I have no response.
    Mr. Pallone. All right. Mr. Duncan?
    Mr. Duncan. We don't have a preference as to which agency 
covers it.
    Mr. Pallone. That is----
    Mr. Duncan. The only requirement is that everyone be 
covered.
    Mr. Pallone. OK. Ms. Moy, yes, no?
    Ms. Moy. If it did not eliminate provisions of the 
Communications Act, yes.
    Mr. Pallone. OK. And our last----
    Ms. Weinman. I will give a similar response to Mr. Duncan, 
that it is not an issue that would implicate ITI members, so--
--
    Mr. Pallone. All right.
    Ms. Weinman [continuing]. I am not expressing a preference 
one way or the other.
    Mr. Pallone. All right. Now I just want to ask my next two 
questions of Ms. Moy, because I may not have a lot of time. 
Lifting the common--I have two. First, lifting the common 
carrier exception without nullifying the data security and 
breach notification provisions of the Communications Act would 
mean that there are two cops on the beat, so to speak, so what 
are the benefits to joint jurisdiction among the FCC and the 
FTC? To Ms. Moy only.
    Ms. Moy. Thank you, thank you so much. So I think one of 
the major benefits is that the two agencies have different 
strengths, and they could work together to use their strengths 
to complement each other and ensure the best protection for 
consumers. For example, the FCC is primarily a rulemaking 
agency that uses its authority to set standards prospectively, 
and the FTC is primarily an enforcement authority. It would be 
really nice if they could work together to establish the 
standards in the first place, and then enforce them in the 
second place.
    I think also the FCC has a lot of very important expertise 
in this area, working with telecommunications networks, and 
other communications networks, and just--and the focus on 
privacy is a little bit different. The focus on privacy at the 
FCC is more about the reliability of the networks, and the fact 
that consumers have no choice but to share information with 
these very important networks in their lives, whereas the focus 
of the FTC on privacy is a little bit more about what is fair 
with respect to consumers. And, again, it would just be really 
nice if those agencies could work together in that area to use 
their expertise, or their respective expertise, in a 
complementary manner.
    Mr. Pallone. And then I have a second one to you only, and 
if I have time, we are going to go to the others. Do you think 
there are any drawbacks to having FTC and FCC enforcement? Are 
you concerned about consumers being confused by having two 
enforcing agencies?
    Ms. Moy. I am not concerned about that. I think that where 
we have seen agencies work together in the past, I don't think 
that there really is confusion for consumers. For example--I am 
sorry, I am blanking, but the FTC and the FCC have worked 
together on the, for example, Do Not Call, of 
telecommunications customers. And I really don't think that 
there is any risk of confusion for consumers of having those 
agencies work together.
    Mr. Pallone. All right, one more question. I will start 
with you, and then--we have time, we will go to the others. Do 
you have any suggestions for how legislation can ensure that 
companies are not burdened by duplicative enforcement?
    Ms. Moy. I am sorry, that companies are not burdened by----
    Mr. Pallone. By duplicative enforcement. Any suggestions 
for how legislation could ensure that companies are not 
burdened by duplicative enforcement?
    Ms. Moy. Well, the premise of the question is that 
duplicative enforcement is necessarily more burdensome for 
companies, and I don't think that that is necessarily the case. 
You know, as I said, the FCC and the FTC can work together to 
formulate standards and enforce them in a uniform way. And I 
think that they would have an incentive to do that, so as to 
maximize the efficiency of their resources toward that goal. 
And I think that that incentive would sync up quite nicely with 
the incentive of having the two agencies work in step with each 
other, so as not to seem like two totally separate regimes.
    Mr. Pallone. All right, thanks. I think I have run out of 
time, Mr. Chair.
    Mr. Duncan. If I----
    Mr. Pallone. Thank you.
    Mr. Duncan. If I might just mention, on that point, under 
the structure of the bill, both the FTC and the State AGs would 
have enforcement authority, and that is an option that works, 
at least in that context. From our perspective, as long as 
everyone has the same obligations, and duties, and 
responsibilities, then it is less of an issue.
    Mr. Leibowitz. Yes. And the only thing I would add is that 
there sort of an evolving consensus that what you really want, 
Mr. Pallone, is a flexible enforcement standard that is strong 
with enforcement. And you also want to treat the same 
information the same way, not under different regimes. So, you 
know, Google can collect information, Verizon can collect 
information, Comcast can collect information. A variety of 
other companies can.
    And, for the most part, I think where this bill wants to go 
is in a data breach context. And in the data security context, 
more importantly, treat them equally.
    Mr. Burgess. Chair thanks the gentleman. Gentleman's time 
has expired. Chair recognizes Mr. McNerney. Five minutes for 
your questions, please.
    Mr. McNerney. Well, I want to thank the chairman and the 
ranking member for allowing me to participate in this hearing, 
even though I am not a member of the subcommittee. I appreciate 
that. And I want to say I appreciate the efforts of my 
colleagues, Mr. Welch, Mr. Burgess, and Mrs. Blackburn for 
crafting this bill. It is clearly needed. And it may not be 
perfect yet, but it can be improved, and it is much better to 
start from the draft than to start over--than to over to start 
over. So I have a couple of questions here.
    Ms. Weinman, you mentioned that the civil penalties for 
breach of notification are excessive for a company that is a 
victim of a criminal act. Do you think it would be OK to lower 
the penalties, or to have some flexibility? And if you think 
flexibility is the way to go, how can you do that in this kind 
of a bill?
    Ms. Weinman. I think lowering would be a good step, and I 
think there is flexibility built into the assessment of civil 
penalties within the bill, but I think lower the maximum 
penalties would make sense in the context of the fact that 
companies themselves are the victims of criminal hackers. So 
there is some discretion with regard to civil penalties within 
the bill, however I do think the maximum amounts set out in 
there should be lower. And I note that the current figures in 
there are, in fact, five times higher than what we have 
previously seen in other proposals, so I just make a note of 
that.
    Mr. McNerney. Well, I mean, you could consider some 
breaches to be gross negligence, and deserving of significant 
penalties, so----
    Ms. Weinman. Well, that flexibility is built into the 
language, but I do think that the ceiling could be lower in the 
draft.
    Mr. McNerney. Thank you. Ms. Moy, you know, preemption is a 
very tricky issue. We want States to have flexibility, but you 
mention that there ought to be a floor. But how could you 
create legislation that had a floor, but allowed States like 
Massachusetts flexibility to go, you know, more stringent, if 
they wanted?
    Ms. Moy. Thank you for the question, and thank you. I do 
recognize that it is very difficult to craft the appropriate 
standard here, and thank you for taking up this difficult 
issue. I, you know, I think that you could set a standard that 
says, this is the minimum standard, and that State laws will 
not be preempted to the extent that they create additional 
standards above that, or beyond that.
    But, you know, but also, as I have said in the written 
testimony, and as I mentioned earlier, we are not necessarily 
opposed to the idea of preemptive legislation, but I do think 
that it is important, if we are going to do that, to ensure 
that the new Federal standard, the new uniform Federal 
standard, is better for consumers than the current draft. I 
just--I think it is really important to strike the proper 
balance between preemption and protections for consumers, and 
this just doesn't quite get us there.
    Mr. McNerney. Now, you mentioned that you felt that the 
draft would lower consumer protections over a wide range of 
consumer protections. Could the bill be strengthened to include 
those current protections?
    Ms. Moy. I believe that it could be, and I think--I would 
be very happy to work with the subcommittee to figure out ways 
that we could get there.
    Mr. Duncan. Congressman----
    Mr. McNerney. Thank you.
    Mr. Duncan [continuing]. One of the reasons that we are 
here today is because there are already 51 conflicting laws out 
there. If Congress doesn't simplify the system to some extent, 
then we will simply have 52 laws out there, and that is not 
moving us forward.
    Mr. McNerney. Thank you. Well, Mr. Duncan, you mentioned 
that--the importance of enacting laws that holds accountable 
all entities that handle personal information. Can you discuss 
how you would improve the draft legislation to modify the 
covered entities?
    Mr. Duncan. Certainly. We would expect that a good law 
would require that every covered entity have the same 
obligation, that third parties--for example, the way the bill 
is written now, some entities do not even have a duty to 
determine--to examine and determine whether or not they can 
find information out about a breach. There has got to be the 
same level requirement all the way across the board.
    Congresswoman Schakowsky asked earlier whether or not we 
could support this legislation. I would say this draft is a 
major improvement over what we have seen before, but if we 
could have equal applicability across all entities, and fix 
some of the issues with the FTC, we could support this.
    Mr. McNerney. Thank you--a lot of good information has come 
out that might help improve the bill, so, Mr. Chairman, I yield 
back. Thank you again.
    Mr. Burgess. Chair thanks the gentleman. Gentleman does 
yield back. The Chair recognizes Mr. Pallone of New Jersey for 
a unanimous consent request.
    Mr. Pallone. Thank you, Mr. Chairman. I ask unanimous 
consent to submit for the record a letter from 12 consumer 
groups to yourself and Ms. Schakowsky.
    Mr. Burgess. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Pallone. I guess we have another one, too, Mr. 
Chairman, from the Consumers Union, in addition to the one from 
everyone else.
    Mr. Burgess. The Chair thanks the gentleman. Without 
objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. Seeing that there are no further members 
seeking to ask questions, I do want to thank all of our 
witnesses. I know this has been a long hearing, but I thank you 
for participation today.
    Before we conclude, I would like to include the following 
documents to be submitted for the record by unanimous consent: 
a letter on behalf of the Credit Union National Association; a 
letter on behalf of the Marketing Research Association; a 
letter on behalf of the National Association of Federal Credit 
Unions; a letter on behalf of the Online Trust Alliance; a 
letter on behalf of the Consumers Union; statement on behalf of 
the National Association of Convenience Stores; a letter on 
behalf of the American Bankers Association, The Clearing House, 
Consumer Bankers Association, Credit Union National 
Association, Financial Services Roundtable, Independent 
Community Bankers of America, and the National Association of 
Federal Credit Unions; and the response of the Secret Service 
to questions submitted for the record at our previous 
subcommittee data breach hearing on January 27, 2015.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. Pursuant to committee rules, I remind members 
they have 10 business days to submit additional questions for 
the record, and I ask witnesses to submit their response within 
10 business days upon receipt of the questions. I thank 
everyone for their participation this morning. This 
subcommittee hearing is adjourned.
    [Whereupon, at 1:16 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    [Mr. Leibowitz did not answer submitted questions for the 
record by the time of printing.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    [Mr. Duncan did not answer submitted questions for the 
record by the time of printing.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    [Ms. Moy's answers to submitted questions for the record 
have been retained in committee files and also are available at 
 http://docs.house.gov/meetings/IF/IF17/20150318/103175/HHRG-
114-IF17-Wstate-MoyL-20150318.pdf.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
